                                             SENSITIVE BUT UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               OFFICE OF INSPECTIONS

                               Inspection of Embassy Tel Aviv, Israel



                               Report Number ISP-I-11-31A, March 2011
Inspector
General
Office of




                                                                      IMPORTANT NOTICE
                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                             SENSITIVE BUT UNCLASSIFIED

  SENSITIVE BUT UNCLASSIFIED





   PURPOSE, SCOPE, AND METHODOLOGY 

          OF THE INSPECTION


This inspection was conducted in accordance with the Quality Standards
for Inspections, as issued by the President’s Council on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of
Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

Purpose and Scope
The Office of Inspections provides the Secretary of State, the Chairman of
the BBG, and Congress with systematic and independent evaluations of the
operations of the Department and the BBG. Inspections cover three broad
areas, consistent with Section 209 of the Foreign Service Act of 1980:

 • 	 Policy Implementation: whether policy goals and objectives are being
     effectively achieved; whether U.S. interests are being accurately
     and effectively represented; and whether all elements of an office or
     mission are being adequately coordinated. OIG does not itself make or
     comment on policy.
 • 	 Resource Management: whether resources are being used and 

     managed with maximum efficiency, effectiveness, and economy and 

     whether financial transactions and accounts are properly conducted,

     maintained, and reported.

 • 	 Management Controls: whether the administration of activities and
     operations meets the requirements of applicable laws and regulations;
     whether internal management controls have been instituted to ensure
     quality of performance and reduce the likelihood of mismanagement;
     whether instance of fraud, waste, or abuse exist; and whether adequate
     steps for detection, correction, and prevention have been taken.

Methodology
In conducting this inspection, the inspectors: reviewed pertinent
records; as appropriate, circulated, reviewed, and compiled the results
of survey instruments; conducted on-site interviews; and reviewed the
substance of the report and its findings and recommendations with
offices, individuals, and organizations by this review.

Because of the close and complex interaction between the two
missions, the OIG team decided to carry out the inspections of
Embassy Tel Aviv and Consulate General Jerusalem simultaneously,
not making final conclusions about one entity until seeing the other.




  SENSITIVE BUT UNCLASSIFIED

               SENSITIVE BUT UNCLASSIFIED





                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl­
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




               SENSITIVE BUT UNCLASSIFIED

                        SENSITIVE BUT UNCLASSIFIED



                                    TABLE OF CONTENTS


KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

  Joint Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

POLICY AND PROGRAM IMPLEMENTATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

  Political Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

  Economic Affairs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

  Public Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

  Consular Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

  Best Practice: Identifying Emergency Appointment Requests

     in the Nonimmigrant Visa Email Box . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            33

  Visitor Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        34

  Rightsizing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      37

  Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            37

  Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               39

  International Cooperative Administrative Support Services . . . . . . . . . . . . . . . . . . . . . . .                                41

  General Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         42

  Best Practice: General Services Ombudsman . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          42

  Facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   49

  Information Management and Information Systems Security . . . . . . . . . . . . . . . . . . . . .                                      52

QUALITY OF LIFE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              57

  Health Unit. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       58

  Equal Employment Opportunity and Federal Women’s Program . . . . . . . . . . . . .                                                     58

  Schools . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    58

MANAGEMENT CONTROLS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79

APPENDIX: JOINT ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81





                            OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011                                  iv


                        SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED





v    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




KEY JUDGMENTS


• 	 The U.S. Embassy in Tel Aviv deals with the Government of Israel, and the U.S.
    Consulate General in Jerusalem deals primarily with the Palestinian Authority.
    Inherent conflicts of perspective have inhibited coordination in some areas, but
    cooperation is significantly better than it has been in the past. Both missions
    should adopt a written clarification of their relations to prevent backsliding.
    Combining some administrative functions could save resources at both missions.
• 	 The Ambassador has forged productive relationships with senior Israeli and
    Washington officials, adding significant value to one of the United States’ most
    sensitive and central bilateral relationships.
• 	 Communication within the mission is limited. The Ambassador is respected for
    his intellectual ability but rarely interacts with employees below the most senior
    ranks. Entry-level officers (ELOs) will benefit from a stronger program of profes­
    sional development and locally engaged (LE) staff from more regular dialogue
    with the management section.
• 	 The volume of official visitors to Embassy Tel Aviv is so great that it is interfering
    with essential business. The mission needs to carry out a comprehensive analysis
    of its procedures for supporting visitors in both the management and policy
    sections to identify the best way to distribute workloads and allocate resources for
    this important function.
•   The embassy struggles to meet a heavy demand for analytical reporting in an
    environment where many interlocutors deal only with a few key Washington offi­
    cials. The problem is exacerbated by poor management of the political section.
• 	 The embassy uses contacts with Israeli Government officials to assist the U.S.
    Agency for International Development (USAID) in carrying out assistance
    programs in the Palestinian territories, but it does not have an adequate system
    to administer a smaller USAID program aimed at promoting conflict mitigation
    inside Israel itself.
• 	 A well-managed program of loan guarantees helped Israel stabilize a temporary
    economic crisis at low cost to U.S. taxpayers. (b)(2)(b)(5)
         planning should begin for an orderly end to it in 2011 as envisioned in the
    original legislation.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   1


               SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED


       •   Embassy Tel Aviv’s consular section copes reasonably well with a heavy pass-
           port and visa workload despite its cramped and ill-designed facility; however,
           consular management has not focused sufficient attention on rationalizing its
           visa process or on the oversight of its many ELOs.

       •   Problems with the local compensation plan shared by Embassy Tel Aviv and
           Consulate General Jerusalem negatively affect the financial well-being and
           health care of LE staff. Resolution will require joint action by both missions.

    The inspection took place in Washington, DC, between September 1 and October
    10, 2005, and in Tel Aviv, Israel, between October 11 and 29, 2010. (b) (6)




2                    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                  SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




CONTEXT


The inspection coincided with President Obama’s push for new Israeli-Palestinian
peace talks. Senior U.S. attention to the efforts, and the difficulty the parties face
in compromising over settlements and
other disputes, refocused world atten­
tion on this “much too promised land.”
Israel comprises only 7,992 square miles
(smaller than New Jersey) and 7.2 million
people, but its religious sites are sacred to
three religions and emotions about it are
intense across the globe, in Congress, and
among important sectors of American
society.

Since the end of the second intifada
in 2005, violence between Israelis and
Palestinians has abated but not disap­
peared. Tensions simmer over the
approximately 350,000 Israeli settlers
scattered throughout the West Bank and
East Jerusalem. The United States regards
the status of Jerusalem as something for
Israelis and Palestinians to determine
through negotiations, leading to the
anomaly that the U.S. Embassy is in Tel
Aviv, although most Israeli Government
offices are in Jerusalem. Governance of          Map of Tel Aviv, Israel and its surrounding region.
the Gaza Strip by Hamas, a U.S.-designated Source: U.S. Government
terrorist organization, has led to a U.S. ban
on American personnel entering that area even though USAID oversees assistance
projects there. A fragile Israeli coalition government leans toward the views of its
members from the nationalistic and religious right, creating a challenge for diplomats
seeking to build support for U.S. policies.

The bedrock of the U.S.-Israeli relationship remains the U.S. commitment to Israel’s
security, affirmed at the highest levels of the U.S. Government and reflected by the
largest military assistance program in the world. The establishment of a Palestinian
state at peace with Israel is a key U.S. foreign policy priority, as is a lasting settlement
of the broader Arab-Israeli conflict through peace agreements that will lead to a
normalization of Israel’s relations with its neighbors. Embassy Tel Aviv coordinates


                    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   3


                 SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    with the Consulate General in Jerusalem to backstop the President’s Special Envoy
    for Middle East Peace (SEMEP), the U.S. security coordinator (USSC), and the
    Roadmap Monitoring Mission. Other objectives include advocating U.S. policies
    and working with the Israeli Government to combat terrorism and crime, enhance
    economic relations, promote respect for human and religious rights, and counter
    trafficking in persons.

    Embassy Tel Aviv faces a number of internal problems that affect its ability to oper­
    ate efficiently. Many embassy staff work in inadequate, dilapidated, unsafe facilities;
    however, in 1995, Congress passed legislation requiring the movement of the embassy
    to Jerusalem and prohibiting the construction of any diplomatic facilities except in
    Jerusalem. Consecutive administrations have determined that moving the embassy
    to Jerusalem would carry significant negative foreign policy implications, which
    has led to regular executive branch waivers and severely constrains spending on the
    existing buildings. Unpredictable threats at this danger-pay post require a high level
    of security and preparedness for emergencies. Finally, but by no means least, the
    embassy provides essential services to the consulate general in Jerusalem, which is
    not a constituent post but a separate mission, empowered to deal with the Palestinian
    Authority and reporting directly to Washington, but relying on the embassy to
    handle its interactions with the Israeli Government on a broad array of issues. In the
    past, the embassy and consulate general have struggled to maintain smooth, mutually
    supportive relations.

    Embassy Tel Aviv has 193 direct-hire American and 576 local positions, representing
    8 U.S. Government agencies housed in 8 buildings. Total funding for embassy opera­
    tions during FY 2010 was approximately $44.2 million, of which $35.7 million were
    Department of State (Department) funds. U.S. military assistance to Israel during
    the same period totaled approximately $2.7 billion, and assistance to the Palestinians
    in the West Bank and Gaza totaled approximately $750 million.




4                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




EXECUTIVE DIRECTION


Given the intersection of U.S. foreign policy objectives, high-profile domestic atten­
tion to Israel, and historically intransigent issues, Embassy Tel Aviv’s leadership
faces challenges matched in intensity in only three or four other world capitals. The
Ambassador performs commendably in this context and has advanced the U.S. rela­
tionship with the Israeli Government in the 2 years since his arrival. The new deputy
chief of mission (DCM) brings attributes that complement the Ambassador’s style.
Their combined leadership merits credit that the embassy functions as smoothly as it
does and is as productive as it is, given the plethora of internal and external obstacles.

High-level visitors dominate Embassy Tel Aviv’s schedule and focus. Several thousand
arrive annually from both the executive and legislative branches, not to mention
representatives of many other sectors of American society. During the inspection,
the embassy managed the simultaneous visits of two prominent senators and hosted
several generals and their staffs, a major charitable organization, and several lower-
ranked officials all in 1 week—and that was a slow week. Thanks to long experience,
the visits went flawlessly and succeeded in achieving their political and public diplo­
macy goals.

On the positive side, the visits of senior U.S. officials ensure the embassy’s regular
access to Israeli Government officials and secure public attention that would other­
wise be more difficult to obtain. Embassy section heads described the Ambassador
as a masterful briefer of Members of Congress and senior U.S. military officers; his
astute grasp of the forces at play in Israel helps shape their views and programs. On
the negative side, the visitor load saps time and resources and puts the embassy into
permanent overload, making strategic planning a neglected luxury. At one country
team meeting during the inspection, nearly every participant spoke exclusively about
what that office was doing to prepare for or manage a high-level visitor, with no time
left for analysis or forward planning. The 2005 OIG inspection recommended that
the embassy establish a visitor unit to alleviate some of the administrative burden,
but 5 years later the embassy was only beginning to discuss ways to respond to that
recommendation. (See discussion and recommendations in the political and manage­
ment sections and in the appendix on joint issues at the end of this report.)

Because few bilateral relationships attract the attention of as many senior American
officials as the relationship with Israel, the Ambassador has a unique opportunity to
interact daily or weekly with the President; National Security Adviser; Secretary of
State; top legislators, military figures, and their senior staffs; the SEMEP; the general
who heads the Roadmap Monitoring Mission; and the general who acts as the USSC.
All of these officials have close relationships with top Israeli officials, so bilateral


                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   5


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    dynamics play out at an exceptionally high level. Furthermore, the ongoing search
    for peace means that negotiations occur with maximum confidentiality and often at
    high speed across different sectors of government. The Ambassador, being new to the
    region, has worked hard and successfully to gain the respect of U.S. experts working
    on the U.S.-Israeli relationship. His intellectual power has earned him full-fledged
    membership in the administration’s team, enabling him to add the value of his
    on-the-ground advice to its deliberations. He participates in video conferences with
    the most senior decisionmakers in Washington and plays an essential role in helping
    coordinate the work of different parts of the executive branch engaged with Israel.

    At the same time, the Ambassador has built credible relationships from scratch with
    senior Israeli officials and military officers. He has been instrumental in advocat­
    ing U.S. policies to skeptical Israeli officials, an especially crucial task following the
    2008 change of U.S. administrations. His persistence has brought the relationship
    safely over some rough terrain. Thanks in part to his interventions, Israel embraced
    important aspects of the U.S. view on how to deal with humanitarian requirements
    and dynamics in Gaza. His advocacy with Israeli leaders also helped improve security
    cooperation with the Palestinian Authority in the West Bank. The heads of U.S.
    agencies at the embassy were unanimous in their appreciation for the Ambassador’s
    support for and involvement in their work.

    One of the embassy’s challenges is how to build support for U.S. policies in Israel
    at a time when peace talks are under way and little can be said about them publicly
    despite intense public interest. The Ambassador is a persuasive public speaker.
    Although reserved, he connects with audiences, as the OIG team observed during
    public and representational events. The DCM also has considerable regional expertise
    to contribute to the public dialogue. It will be useful to the United States for the
    Ambassador, the DCM, and the embassy’s public diplomacy section to continue
    developing outreach programs that explain and advocate fundamental U.S. positions
    to Israeli audiences who may be becoming more distant from the United States than
    in the past.

    Although the DCM had been in Israel only for 3 months when the inspectors
    arrived, he has assumed a vigorous and positive leadership role. He has ideal
    credentials for the job: former service in the region and as office director for Israeli-
    Palestinian affairs in the Department. This background equips him with not only
    knowledge of the issues but also a rare ability to see both sides of a highly polarized
    political situation. He has already performed commendably as chargé d’affaires,
    consulting effectively with close contacts in the Israeli Government about an explo­
    sive incident on the Lebanese border.




6                      OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED


(b)(2)(b)(5)




                              The DCM’s outgoing personality complements the
Ambassador’s more reserved leadership style, and many employees find the DCM’s
accessibility beneficial.

Communication and morale are also affected by the lack of an adequate system to
allow all employees to read and handle classified information when needed. During
the 2005 OIG inspection, the mission used a common access terminal room in the
executive suite for this purpose, but that was turned into an office for the USSC
to use during his visits to Tel Aviv. As a temporary measure, the embassy makes
available only a single classified terminal,(b)(2)(b)(5)
                   The closet is too small to permit a door, and it is also used by other
visitors as temporary office space. The result is that employees in some units that do
not have classified terminals of their own are unable to complete essential work or
keep up with key cable traffic, adding to their sense of isolation from the mission’s
overall work.


    RECOMMENDATION 1: Embassy Tel Aviv should establish a common
    access terminal room with a sufficient number of classified terminals to
    support the needs of all sections. (Action: Embassy Tel Aviv)




JOINT ISSUES
With the determined leadership of the Ambassador, the DCM, and their coun-
terparts in Jerusalem, relations between Embassy Tel Aviv and Consulate General
Jerusalem are better than they have been in many years. The OIG team found a
better picture of cooperation than expected. The inspectors saw no reason to ques-
tion the current authorities or areas of operation of the two posts. Nonetheless, both
missions could do more to get the most out of their limited resources by combining
forces further and supporting each other whenever possible. The OIG team made a
number of findings and recommendations for joint action on these issues. Because



                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   7


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    they will require action by both posts, they appear in an appendix on joint issues
    that is included at the end of this report and at the end of the OIG inspection report
    on Consulate General Jerusalem. Note that all joint recommendations are treated
    formally in a separate report, Joint Issues in the Inspections of Embassy Tel Aviv and
    Consulate General Jerusalem (ISP-I-11-35).


    Entry-Level Officers
    The Ambassador and DCM are moving to reinvigorate a dormant program to
    address career development needs of ELOs and specialists. They have met with the
    ELOs as a group and plan to hold regular meetings with them. The present program
    is not able to provide ELOs with a full range of opportunities that constitute a
    comprehensive career development matrix. Along with their counterparts at USAID,
    the ELOs and entry-level specialists formed an association that is developing a
    number of initiatives, including a volunteering program. The OIG team met with
    them individually and as a group and concluded that many feel confined to the
    narrow duties of their sections and never see or understand the full scope of embassy
    activities. Many are unable to participate in the broader work of the embassy, such
    as helping with programs for the embassy’s many visitors. ELOs from some sections
    also believe they are receiving inadequate supervision and guidance on a day-to-day
    basis and fear that their careers will suffer from this lack of mentoring. The DCM
    welcomed a number of suggestions from the OIG team for a more comprehensive
    ELO development program.


       RECOMMENDATION 2: Embassy Tel Aviv should develop and implement
       a plan to provide entry-level officers with mentor pairings and well-defined
       opportunities to support official visits, speak in public fora, produce written
       reports, and participate in representational events. (Action: Embassy Tel Aviv)


    At the time of the inspection, Embassy Tel Aviv enjoyed full staffing for the first
    time in a year. Despite earlier staffing gaps, embassy leadership overcame obstacles
    to getting work permits for American spouses in Israel and overdue pay raises for LE
    staff. A number of management and supervisory problems accumulated during the
    long period of understaffing, however, when employees at all levels were struggling
    to keep pace with the grueling workload. For too long, simply completing essential
    tasks was a real achievement. Little time or energy remained for strategic planning
    or implementing permanent solutions to long-standing problems. The failure to
    establish a more rational approach to the visitor workload, as previously described,
    is one example of this difficulty. The OIG team found other examples in the politi­
    cal, consular, public diplomacy, management, and information management (IM)
    sections. These are discussed in the relevant sections of the report. The Ambassador


8                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



and DCM intend to use the staffing now at hand to conquer persistent impediments
to smooth functioning. In some cases, this will involve a more hands-on approach to
rectify inadequate or counterproductive supervision of mid-level and entry-level staff.

The embassy is attentive to Equal Employment Opportunity (EEO) issues. The OIG
team learned that there had been some fear of retaliation for EEO complaints in the
past, but changes in personnel appear to have redressed that situation. (See the qual­
ity of life section of the report for additional discussion.)

The Ambassador and DCM are very supportive of security programs and concerns.
They work closely with the regional security office to ensure an appropriate security
posture and an adequate level of emergency preparedness. All embassy employees
take security measures seriously and receive appropriate training. (See the classified
annex to this report for details on security programs.)


Strategic Planning
The embassy produced a detailed Mission Strategic and Resource Plan (MSRP)
for FY 2012. The report was drafted by political and economic officers rather than
management officers because the mission uses it primarily to articulate broad policy
objectives rather than to lay out operational plans for using resources. The process
was inclusive of all agencies at post.

Some sections of the mission use the MSRP as a planning guide, whereas others
rarely consult it once it is completed. The OIG team could not determine whether
the report was a cost-effective tool for planning at this post because, like most embas­
sies, Tel Aviv does not keep records of the cost in person-hours of its preparation. The
embassy did not receive formal feedback from the Department on whether its MSRP
met expectations or requirements.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   9


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





10    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



POLICY AND PROGRAM
IMPLEMENTATION


POLITICAL AFFAIRS
A troubled political section struggles to meet a heavy demand for reporting while
managing a constant stream of visitors. (b)(2)(b)(5)    Some expectations for instant
reporting are unrealistic under local circumstances, but officers are learning to
support high-level negotiations with reporting and analysis even when they are not
informed about the negotiations’ contents. Reporting has recently improved, but the
section’s work is hindered by poor management of its resources.


Organization and Management
The political section is not divided into units. Officers work as individuals, with
narrowly defined portfolios that include a mixture of internal and external issues.
Despite the care with which portfolios were designed and allocated, overlaps have led
to lack of clarity in some cases over who is responsible for what. This approach makes
it difficult for the section to prepare reporting that combines the information gained
by several different officers. It also requires a complex system of backups to ensure
coverage during absences. The OIG team recommended informally that the embassy
replace portfolios with a system of reporting teams.

Political work is hindered by a lack of clearly prioritized instructions to facilitate the
efforts of all officers. The newly arrived counselor is an experienced reporting officer
with strong language and contact skills but less finesse in leadership and manage-
ment. Under pressure to increase reporting and expand the section’s contacts, he
has concentrated on doing so himself instead of empowering his staff to do so by
identifying and removing obstacles to their performance. He manages production
through urgent but not always consistent taskings. This approach has not improved
the situation (b)(2)(b)(5)




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   11


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




         RECOMMENDATION 3: Embassy Tel Aviv should revise the work require­
         ments statement of its political counselor to de-emphasize reporting and
         emphasize responsibility for management, mentoring, and providing a positive
         work environment. (Action: Embassy Tel Aviv)


     The Ambassador and DCM draft little reporting. Although the DCM takes an active
     and critical interest in the political section’s work, the Ambassador does not visit the
     section and does not routinely share with it the results of his meetings. The OIG
     team informally recommended that the embassy request a clearer statement from key
     Washington consumers, such as the SEMEP, of what kinds of reporting are most
     useful. The team also encouraged the mission to add its greatest comparative value by
     expanding contacts with mid-level politicians and reporting on domestic factors that
     affect the policies and stability of Israel’s coalition government.


     Political-Military Affairs
     Political-military work is strong. Political officers work collegially with the Defense
     attaché office and others to produce reporting and support a heavy load of visitors.
     There is more political-military work than a single officer can manage but not
     enough to justify a second position, which results in heavy overtime and burnout.
     According to the embassy, the section’s lone political-military officer spends 85
     percent of his time supporting visitors—an unsustainable ratio that interferes with
     other necessary work. (See following discussion and recommendations.)

     The OIG team found a need to clarify some aspects of the embassy’s role in Leahy
     vetting. U.S. legislation requires the mission to vet Israeli military personnel who
     train with U.S. counterparts to make sure they have not committed human rights
     abuse. The embassy is preparing a written, standard operating procedure for doing
     so by checking names against the records maintained at post by various sections of
     the mission, including material used to prepare the annual Human Rights Report. 

     (b)(2)(b)(5)




12                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




   RECOMMENDATION 4: The Bureau of Democracy, Human Rights, and
   Labor, in coordination with the Office of the Legal Adviser and the Bureau of
   Near Eastern Affairs, should provide Embassy Tel Aviv with updated guidance
   on vetting Israeli military personnel under the Leahy Amendment. (Action:
   DRL, in coordination with L and NEA)


Except for this uncertainty, the embassy handles Leahy vetting well. The OIG team
recommended informally that it shift responsibility for administrative aspects of
the process from the human rights officer to an office management specialist to
distribute workloads more efficiently. Embassy Tel Aviv is scheduled to receive new
International Vetting System software for this purpose before the end of 2010.


Advocacy
In contrast to its heavy visitor workload, the embassy’s démarche load is relatively
light. The expense of delivering even a single démarche is high, however, because the
Foreign Ministry and most other government offices are located in Jerusalem, an
hour and a half away by car. The embassy attempts to bundle démarches and deliver
them together when it can, but there are limits to this approach. To be effective, most
démarches must be delivered individually; trying to push them through a single point
of contact would invite inaction or delays. Officers must also spend sufficient time
in Jerusalem to identify which offices are most productive to work with and develop
the personal contacts that enable them to navigate the Israeli bureaucracy. The
result is that the resource cost of démarche work is higher than normal, even though
the embassy makes good use of its “Pickering” authority to shape the timing and
approach of its démarches to be most effective under local circumstances.

Demands for spot reporting leave too little time for the preparation of reports
required by Congress, including the annual Human Rights Report and International
Religious Freedom Report. Beginning in 2011, the Department plans to have
resource-intensive annual reports cover the same time frame wherever possible instead
of being based on different fiscal years. Although this may cause a temporary spike
in workload, action officers believe it will save time in the long run and make the
preparation of required reporting more efficient.

The political section could make greater use of LE staff to help with researching and
drafting reports. Section leaders told the OIG team that they plan to do so. Shortly
before the inspection, the political section added a second LE staff position even
though it has not yet been able to find permanent workspace for the new employee.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   13


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Visitor Support
     Important as reporting is, the political section is primarily operational. As noted
     earlier, it struggles to support a heavy load of visitors. Several factors raise the cost of
     doing so. Israeli Government offices are closed on Fridays, when the embassy is open,
     and are open on Sundays, when the embassy is closed. An important part of the work
     involves persuading interlocutors to meet at inconvenient times. Visits often require
     time-consuming and complex coordination with Consulate General Jerusalem. Many
     require an unusual amount of support.

     The Ambassador would like to distribute the visitor workload more evenly but tends
     to rely on political officers because they handle visits well. Because most officers are
     not eligible for overtime pay, they do not record it, blurring awareness of the real
     cost. The OIG team left an informal recommendation to shift more administrative
     parts of the visitor support work from control officers to a badly underutilized office
     management specialist position. (See the management section, as well as the appendix
     on joint issues included at the end of this report, for a full discussion of this issue and
     additional recommendations.)


     Grants Management
     The political section is responsible for managing a $35,000 grant designed by
     the Office to Combat and Monitor Trafficking in Persons to create a hotline for
     complaints by migrant workers. Israel replaced large numbers of Palestinian workers
     with migrant labor from other countries after a period of Palestinian suicide attacks.
     A first-tour political officer was designated as grants officer representative but did
     not receive a letter of instructions from the granting office, as required by Grants
     Directive 16, or any training in grants management. During the inspection, the
     Office to Combat and Monitor Trafficking in Persons agreed to send the mission the
     required letter of instructions.




     ECONOMIC AFFAIRS
     A well-managed section produces solid economic and financial work across a range
     of important issues. It is led by an experienced officer who is respected by his staff for
     leadership abilities as well as economic expertise.

     The section is appropriately organized and staffed. Unlike most sections of its size,
     it is supported by two American office management specialists but only a single




14                      OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



LE staff position. This unusual distribution of resources works because both office
management specialist positions concentrate on helping officers deal with the
mission’s heavy load of visitors, while the local employee provides research and drafts
some cables.

The embassy devotes considerable time to monitoring Israel’s compliance with
conditions in U.S. loan guarantee agreements. In 2002 the United States agreed to
help Israel recover from an economic crisis caused by global downturn and a wave of
Palestinian suicide attacks by guaranteeing that it could borrow as much as $9 billion
if necessary. By reassuring investors, the very existence of the guarantee meant Israel
could borrow on international markets at low cost. The guarantee cannot be used
to finance settlements in the West Bank and can be cut off if Israel does not meet
targets for the maintenance of sound financial discipline.

This generally well-managed program has accomplished its purpose—stabilizing
Israel’s economy—at minimum cost to U.S. taxpayers. Planning should begin now
for its orderly termination. Since the last OIG inspection, Israel has been admitted to
the Organization for Economic Cooperation and Development, an indication that
it is now a modern, self-sufficient economy capable of supporting its citizens as an
industrialized country. The OIG team found a broad consensus that the loan guar­
antee program can prudently be terminated in accordance with the sunset clause in
the original legislation, which provided that it would end by 2011. The bureaucratic
mechanism for monitoring the program, known as the Joint Economic Development
Group, continues to meet regularly. In September 2010, the embassy formally recom­
mended in a cable that this mechanism be transformed into a forum for broader
strategic dialogue on economic policy. At the time of the inspection, the embassy had
not received a reply to that cable.


    RECOMMENDATION 5: The Bureau of Economic, Business, and
    Energy Affairs, in coordination with Embassy Tel Aviv, should work with
    the Department of the Treasury to prepare a plan for bringing the Israel loan
    guarantee program to an orderly conclusion as envisioned in the original legis­
    lation and for redirecting the program’s Joint Economic Development Group
    to other purposes. (Action: EEB, in coordination with Embassy Tel Aviv)



Reporting and Analysis
Economic reporting in general is strong. A few subjects fall between the cracks
because the mission focuses on urgent spot reporting that can sometimes miss a
larger trend. Despite a flurry of email messages, for example, it has not yet engaged
in combined reporting on how and whether Israel’s discovery of large new deposits


                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   15


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     of natural gas will affect its energy policy, relations with the Arab world, and climate
     change diplomacy. The OIG team recommended informally that it make more use of
     periodic summaries of key developments to highlight broader trends.

     The economic section is responsible for supporting the office in Washington that
     monitors compliance with the “roadmap” for cooperation on security and other issues
     between Israeli forces and the Palestinian Authority in the occupied West Bank.
     Despite the difficulty of arranging meetings in the West Bank, where all travel must
     be approved by Consulate General Jerusalem and accompanied by security details,
     embassy section officers work closely and collegially with their counterparts in
     Jerusalem to produce high-quality reporting and analysis. The OIG team heard that
     such reporting, as well as a heavy load of visitor support, was meeting Washington
     consumers’ needs by combining views and information from both sides in joint
     cables. The mission sends most information in front-channel cables and uses email to
     obtain a steady stream of feedback and guidance.


     Commercial Affairs
     Economic officers work closely and collegially with a Department of Commerce
     office staffed by U.S. and Foreign Commercial Service officers. Aided by approaches
     such as sharing calendars and holding regular interagency meetings, the two
     groups have avoided tensions over bureaucratic turf and have cooperated in support
     of common goals. Instead of focusing only on existing markets inside Israel, for
     example, Commerce officers in Tel Aviv support the foreign policy goals of Consulate
     General Jerusalem by playing an active role in programs to encourage less immedi­
     ately profitable markets in the West Bank as well.

     Foreign Assistance
     The economic section is also responsible for supporting USAID programs in the
     West Bank by intervening with Israeli authorities to overcome obstacles to the transit
     of goods or travel of personnel. Economic officers work directly and effectively to
     do so with the Coordinator of Government Activities in the Territories, a unit of
     the Ministry of Defense that must approve all foreign embassy or nongovernmental
     organization activity in the occupied territories.


     Terrorist Finance
     The embassy works with Israeli authorities to block financial flows to terrorist
     organizations. Even though (or because) all agencies at post cooperate closely on this
     issue, the law enforcement working group has not met formally in some time. The
     OIG team left an informal recommendation that the mission resume holding regu­
     larly scheduled meetings of this group to coordinate and guide this work.


16                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Environment, Science, Technology, and Health

The embassy manages environment, science, technology, and health work through
its economic section. With too much work for one position but not enough to justify
a second one, the embassy hired an eligible family member (EFM) to supplement
its work. The environment, science, technology, and health officer and EFM do not
function as a regional hub but focus on bilateral issues. They focus much of their
work on Israel’s advanced technology in alternative energy and water conservation.
The embassy works closely in this area with the U.S.-Israel Binational Industrial
Research and Development Foundation, which has funded joint research by 35
Nobel Laureates from both countries and yielded direct and indirect revenue of as
much as $8 billion since its inception.




PUBLIC DIPLOMACY
Embassy Tel Aviv manages a public affairs program of $6.8 million in a sensitive
political environment amid a very active media scene and an Israeli public intensely
interested in the current Israeli-Palestinian negotiations. The public affairs section
(PAS) ably supports the Ambassador’s engagement with the Israeli public through
speeches, interviews, appearances, and cultural events throughout the country. The
section’s media monitoring and analysis draw praise from Washington consumers.
PAS manages a broad range of exchange programs, expert speakers, embassy speak­
ers, American Corners, grants, and cultural programs that include a particular focus
on underserved populations. The American Center in Jerusalem serves as an arm of
PAS Tel Aviv, engaging with Hebrew-speaking audiences in Jerusalem.

Morale is high. Despite the absence of a permanent public affairs officer (PAO) for
over a year, highly trained and motivated LE staff members managed to carry out
the full range of public diplomacy programs—even though almost all remarked on
the difficulty of working without a senior American officer at the helm. One reason
for this success is that LE staff members believe they are engaged in very important
work—advancing and supporting the peace process—and are highly skilled and
experienced. All LE and American staff members welcomed the arrival of a new
PAO, a seasoned public diplomacy officer.


High-Level Visits
The public affairs section provides press support for frequent high-level visits. As
these visitors often conduct press conferences in Jerusalem, PAS Tel Aviv is some­
times called upon to move staff to Jerusalem, as was done this year for visits by the
Vice President and the Secretary. The American Center in Jerusalem supplements


                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   17


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     this effort with personnel and logistical support. For the most recent visit by the
     Secretary, Palestinian journalists were included in the press conference. For the first
     time, PAS from the Consulate General in Jerusalem worked jointly with PAS Tel
     Aviv on visit preparations and logistics.


     Organization and Staffing
     Because of years of frequent turnover in PAS leadership, including the curtailment of
     the previous PAO, the section’s management structure has not received the attention
     warranted. Many position descriptions are not up to date. The flat organizational
     structures of the cultural affairs unit and the press unit are unusual in a PAS of this
     size, given the embassy’s political importance and broad range of programs. All of
     the LE members of staff in the press unit report directly to the information officer,
     bypassing the assistant information officer (AIO), who works with LE staff members
     but does not supervise any of them. The arrangement is the same in the cultural
     section, with the assistant cultural affairs officer (ACAO) working alongside LE staff
     but without any supervisory responsibility. Neither the ACAO nor the AIO has an
     adequate opportunity to develop supervisory skills.

     The situation is particularly acute in the cultural section, where a first-tour ACAO
     is responsible not only for cultural programs but for managing multimillion dollar,
     USAID-funded grant projects. (See the section on grants.) In addition to her own
     dedication and capability, the main reason the ACAO has been able to succeed in
     managing this outsized responsibility is because she could rely on the support and
     expertise of the experienced LE staff. An experienced, retired Foreign Service officer
     arrived at post in October 2010 to take on some of the responsibilities for the cultural
     affairs program and to provide guidance to the ACAO and LE staff. The OIG team
     recommended informally that the embassy divide the ACAO’s portfolio into a more
     appropriate and manageable package that would include supervision of LE staff.

     In contrast, the AIO’s work requirements do not include enough responsibilities to
     help her gain the experience needed to advance to higher levels. Although the posi­
     tion is rotational, with only a single year served in PAS, the OIG team recommended
     informally that the embassy devise a more substantial program of work requirements
     to include supervision of LE staff. As this position is designated as “public diplomacy
     officer,” responsibilities do not have to be limited to those of the information unit but
     could include overseeing outreach at the four American Corners.

     Grades for LE employees in the cultural section are irregular. Some positions have
     different grades, although they require the same education and experience qualifica­
     tions and manage programs of similar scope and complexity.




18                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



The PAO collaborated extensively with the OIG team to devise an appropriate
structure for PAS. She has already begun to take steps to create a more effective
organizational plan and build a more coordinated team that would include devolving
more responsibility to ELOs. This reorganization will involve a regular practice of
including the American Center in Jerusalem by digital videoconferencing in weekly
staff meetings. The OIG team informally recommended that the PAO review all
American and LE staff position descriptions to make sure responsibilities are clearly
delineated and grades are appropriate.


Social Media
The embassy is exploring ways to expand its use of social media to engage broader
audiences. In addition to expanding the AIO’s work requirements to include wider
use of social media, the PAO is also identifying expertise among LE staff in using
social media for public affairs purposes. This effort may require one additional
LE staff position. A representative from the Office of International Information
Programs visited Embassy Tel Aviv in October 2010 to consult with PAS on expand­
ing its social media outreach.


Grants Programs
In addition to its cultural and educational programs, PAS manages three separate
grants programs. Each requires its own interagency grants selection committee.
Administration of one of these, the Conflict Management and Mitigation program
(CMM), places too large a burden on PAS staff and resources. Grant management
experts from the Department visited Embassy Tel Aviv early in 2010 and again in
September 2010 to conduct grants training. Although this training is extremely help­
ful, PAS needs more operational support in managing the large grants programs.


Embassy Small Grants Program
The embassy small grants program has an annual budget of $395,000. This grants
committee, composed of the PAO, other PAS staff, and representatives from the
political and economic sections, meets monthly to evaluate and select grant propos­
als submitted by local educational institutions and nongovernmental organizations.
Criteria are based on support of MSRP goals. Proposals tend to be unsolicited but are
often submitted by organizations that have partnered with PAS, such as universities,
cultural organizations, and American Corner host organizations. The embassy finan­
cial management office disburses the funds to the grantee organizations. Most grants
average about $10,000. Anything greater than that amount must be approved by the
Bureau of Near Eastern Affairs (NEA). Several PAS officers hold grants warrants.
PAS LE staff members are assigned as project officers for day-to-day follow-up and
monitoring of individual grants. This program is running smoothly.


                 OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   19


              SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     Middle East Partnership Initiative Local Grants
     Middle East Partnership Initiative (MEPI) grants are funded by NEA in Washington
     and are aimed at Israeli-Arab communities and Israeli-Arab dialogue. A committee
     chaired by the DCM evaluates proposals and forwards them to the MEPI Tunis
     office, which acts as grants officer and disburses funds directly to grantee organiza­
     tions. The ACAO oversees this program with the assistance of a trained and Arabic-
     speaking LE staff member. The ACAO is currently the grants officer representative,
     but the PAO plans to delegate this responsibility to LE staff in order to distribute
     work more rationally. Appropriate embassy officers and LE staff members are
     assigned as project officers according to the subject matter of the grant.

     A representative of the MEPI Tunis office visited Embassy Tel Aviv in October 2010
     and recommended that the embassy keep minutes of its MEPI committee meetings.
     The embassy will comply and take advantage of the rolling grants availability by
     increasing the frequency of its grants committee meetings from its current annual
     schedule. Grant proposals from Embassy Tel Aviv compete for funding against
     other proposals from other U.S. embassies in the region, but MEPI Tunis estimates
     that Embassy Tel Aviv will receive funding to cover approximately 14 grants per
     year at $50,000 to $75,000 each. In addition to the MEPI local grants program,
     NEA/MEPI in Washington awards larger grants for pan-regional projects and seeks
     preliminary comments from Embassy Tel Aviv.


     Conflict Management and Mitigation Grants Funded by the U.S. Agency for
     International Development
     This program is an anomaly. USAID’s Bureau for Democracy, Conflict, and
     Humanitarian Assistance receives economic support funds to conduct programs in
     Israel, but USAID has no mandate to operate in Israel. The USAID office in Tel Aviv
     is dedicated to the West Bank/Gaza operation and is authorized to manage programs
     only in the West Bank and Gaza. Because USAID does not carry out operations in
     Israel, USAID asked the embassy to manage its CMM program, which has grown
     from $1.1 million in FY 2008 to $5.2 million in FY 2010. USAID transfers the fund­
     ing for this program to Embassy Tel Aviv for the financial management officer to
     disburse. The embassy has assigned oversight for the CMM program to PAS, as PAS
     officers are almost the only ones in the embassy with grants warrants and experience
     in managing grant programs. The section does not have the structure or resources to
     manage a program of this magnitude. The Embassy CMM committee, composed
     of representatives from USAID, PAS, and the political and economic sections, meets
     annually to review approximately 60 to 70 proposals and to make recommendations
     on funding. Because some grants have provoked strong political backlash in Israel,
     the embassy is revising its procedures to ensure that the Ambassador and DCM have
     an opportunity to review the committee’s selections before USAID sends them to
     Washington for final approval.


20                    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                   SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



Until the arrival of a PAO in October 2010, the ACAO carried the responsibility
for managing the CMM program and overseeing grant activity along with her other
work requirements, while the embassy financial management officer shouldered the
financial management. There are several problems with the current process:
       1.	 Most officers on the CMM committee have no experience or expertise in
           grants selection or CMM.
       2.	 The responsibility for financial management of this program has created
           a significant burden on the embassy financial management office.
       3.	 PAS does not have the personnel or resources to oversee and manage
           grants of this scope and financial level adequately.
       4.	 USAID Tel Aviv does not provide administrative support in managing
           the financial transactions or overseeing the grant activity. USAID
           Washington did not approve a request by Embassy Tel Aviv for adequate
           funding to cover its administrative expenses.

The embassy is seeking to devise a structure that can adequately manage such a
large assistance program. USAID Tel Aviv agrees that the current arrangement is
not adequate and would like to see it changed. The USAID director noted that
the program is growing and cautioned that the embassy may want to limit CMM’s
growth to a size and scope that it can manage appropriately.


   RECOMMENDATION 6: Embassy Tel Aviv should devise an appropri­
   ate structure to manage its Conflict Management and Mitigation program’s
   financial and program oversight, seeking administrative and financial exper­
   tise from the U.S. Agency for International Development where appropriate
   and limiting the growth of the program to a level it can oversee effectively.
   (Action: Embassy Tel Aviv)



Fulbright Program
The 2005 OIG inspection report recommended that Embassy Tel Aviv broaden
participation in United States-Israel Educational Foundation (USIEF) grants and
increase the program’s efficiency.

Despite high-level visits from the Bureau of Educational Exchanges to urge the
USIEF board to do so, USIEF has not yet fully implemented this recommendation.
During the inspection, the USIEF executive director outlined a plan to comply with
the recommendation. The board has agreed to widen the pool of Israeli Fulbright
applicants to include minorities and underserved populations and to increase the
number of scholarships for study in the United States, in compliance with the


                 OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   21


              SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     recommendations in the 2005 OIG report. USIEF has also hired an Arabic-speaking
     program officer to increase recruiting in minority communities. It now advertises
     scholarship programs in the Arabic language press and radio as well as on the USIEF
     Web site.

     USIEF’s legal status is not clear. The organization was founded in 1956 under a bilat­
     eral agreement with the Ministry of Foreign Affairs. The agreement was amended
     in 1962, but the organization was evidently never given legal status. The original
     agreement provided that U.S. citizens employed by USIEF would be exempt from
     paying Israeli income taxes. Before tax records in Israel were computerized, the issue
     of USIEF employee taxation may have been overlooked, but recently it has come to
     the attention of the Israeli authorities. There is also a question about whether USIEF
     should pay property taxes on its rented office facilities.

     In August 2009, the embassy requested guidance from the Bureau of Educational
     and Cultural Affairs and the Office of the Legal Adviser on the best way to obtain
     legal status for USIEF under Israeli law. Despite more than a year of discussions,
     the issue remains unresolved. Embassy Tel Aviv received conflicting information on
     whether the Israeli Knesset must pass a law giving USIEF legal status or whether
     the problem could be solved by diplomatic means. If USIEF’s status is not clarified,
     Israeli donors such as the Council on Higher Education could become more reluctant
     to provide funding, resulting in cash flow problems for USIEF.


        RECOMMENDATION 7: The Bureau of Educational and Cultural Affairs,
        in coordination with the Office of the Legal Adviser, should decide on a strat­
        egy to obtain legal status for the United States-Israeli Educational Foundation
        under Israeli law and instruct Embassy Tel Aviv to carry it out. (Action: ECA,
        in coordination with L)



     Engaging the Israeli Public
     Much of the Israeli public is suspicious of U.S. efforts to promote negotiations aimed
     at establishing an independent Palestinian state. The lively and fractious press often
     misinterprets American policies. The PAO has devised a plan to reach some audi­
     ences by incorporating more media publicity into planning for cultural events. The
     section may also be able to do more to publicize the very large grants projects that
     it manages, expanding its reach to broader and younger audiences and improving
     the embassy Web site to carry more substantial information about U.S. policies and
     making more creative use of social media. The Ambassador, DCM, and other senior
     officers could also advocate fundamental U.S. policy positions more visibly.



22                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



PAS engages many Israeli audiences through nonpolitical events aimed at sharing
American culture and values. During the inspection, the OIG team witnessed an
enthusiastic audience response to Israeli musicians playing American music and a
performance by a well-known American dance troupe. The embassy understands
that, in some difficult political environments, cultural programs can be an effective
way to communicate American values to wide audiences.

The OIG team recommended informally that the embassy use the new structure in
PAS, as recommended earlier, to increase its communications about U.S. policies and
values and to rebuild contacts with opinion leaders and influential think tanks.




CONSULAR OPERATIONS
American citizen residents in Israel make up a greater share of the total population
than in any other country in the world. More than 300,000 American citizens,
many dual nationals, may be resident and greater than 130,000 are registered at the
embassy. Many have family in the United States. Both the American citizen and
Israeli client bases expect to move effortlessly between the two countries on short
notice, guaranteeing sustained demand for service and high-level public attention to
Embassy Tel Aviv’s nonimmigrant visa (NIV) and American citizens services (ACS)
operations.

At the time of the inspection, the consular section had a full officer complement after
months of short staffing, bringing an end to routine overtime and long wait times
for NIV and ACS appointments. Consular management was reinstituting internal
rotations and nonconsular development opportunities for the section’s ELOs for the
first time in 6 months. Although consular management had improved a number of
processes, it had not addressed other issues, including visa interview bottlenecks,
post-deployment evaluation of the Consular Electronic Application Center (CEAC),
equipment maintenance and inventory, and some internal controls. Managerial
oversight of NIV operations was inadequate. ELOs were essentially training one
another, counseling on performance was cursory, the renegotiation of the machine
readable visa (MRV) fee collection contract had stalled, and LE staff position descrip­
tions had not been rewritten following the introduction of the CEAC process. Morale
was mixed, with NIV ELOs who had weathered the lean summer months with little
supervision pulling down the average. Sustained and consultative management atten­
tion to NIV operations can redress this situation.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   23


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Consular Management

     Space
     Embassy Tel Aviv’s consular section is packed with people, equipment, and file cabi­
     nets. NEA and the embassy recently provided funding for upgraded office furnish­
     ings and carpeting. The rehabilitation, planned for February 2011, will change some
     desk configurations to provide better oversight of controlled items and better integra­
     tion of officers with LE staff.

     The ACS unit is nearly impossible to make maximally functional. The ACS chief
     and the three special consular services staff sit on a mezzanine level, where they can
     view the interview windows and the passport employees through a bank of windows,
     but they have to run up and down the stairs in order to deal with the public. The
     busy federal benefits unit requires a dedicated service window adjacent to its small
     work area, but that window is also the only one that provides a minimum of privacy
     for the most sensitive ACS cases. There are not enough interview windows for the
     existing staff to handle the large workload. Moreover, the microphones work so
     sporadically that personal details are sometimes inadvertently broadcast into the
     waiting room. The management section has committed funding for a privacy booth
     at the federal benefits window and for the repair of the microphone system to address
     these problems and increase efficiency.

     The NIV unit’s long, narrow waiting room cannot provide seating for more than a
     handful of visa applicants. Three lines of standing applicants comingle while their
     documents are checked and ordered at a greeter station, they have their fingerprints
     captured and verified, and they wait for interviews. Management has made some
     improvements to the waiting area so that it can accommodate more people, but the
     limited number of interview windows still means that applicants might stand for 2
     or more hours during peak periods. NIV management does not adjust the ratio of its
     LE and officer staff at the interview windows efficiently to cope with the pressure on
     its waiting room. The OIG team made three informal recommendations to address
     this problem: (1) that the section no longer post an EFM at a dedicated window to
     verify fingerprints collected by LE staff; (2) that the section order additional single
     print equipment so that officers can verify fingerprints during the interview; and (3)
     that management identify trip wires that will convert one or two intake windows to
     interview windows as necessary.

     The classified annex discusses the conversion of an unused security screening space to
     an additional enclosed waiting area.




24                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Staffing

The ratio of managers to ELO and LE staff is appropriate. The NIV unit is staffed
for its higher FY 2008 workload, and applicant numbers are again climbing after a
25 percent decrease 2 years ago. The ACS unit appears to have sufficient LE staff, but
its officer contingent is barely adequate. At the time of the inspection, the unit’s two
officers were supplemented by a Hebrew-speaking Civil Service officer on temporary
duty and a consular associate, who shared the “window” work with the ELO. The
ACS portion of this report details the need for another half-time ACS officer, who
would also cover the fraud prevention manager (FPM) portfolio. At present, the NIV
chief is also the FPM; these competing priorities have detracted from the amount of
time spent on NIV oversight. Tel Aviv’s rest and recuperation policy means that at
any given time, one officer is away from post. The Bureau of Consular Affairs (CA)
has approved a professional adjudication specialist for the ACS unit, but candidates
are unlikely to have both consular training and language skills.


Equipment
The consular section has lost control of its inventory of backup equipment. While the
inspection was ongoing, management identified an officer and two LE staff members
to locate, inventory, and test all equipment not in current use to determine whether it
was operable and to include it in an updated inventory. The OIG team provided CA’s
standard operating procedures on the number of backups that the section should
have in stock, and management was taking steps to secure backup computer termi­
nals and other essential equipment as the inspectors departed.


Leadership
Tel Aviv’s consular section appears to enjoy a positive image in the community. The
consul general takes an active interest in the ACS caseload. He assists on high-profile
cases and consults closely with the ACS chief. This oversight, together with the ACS
chief’s hands-on management style and the skill level of LE staff, has produced a
relatively cohesive unit despite its poor space configuration.

The consul general defers most of the coordination and decisionmaking in the
NIV unit to the NIV chief, an experienced officer but one whose recent consular
assignments have focused on ACS issues. (b)(7)(C)(b)(7)(F)


                              Although there is broad acknowledgement in the
Department and the law enforcement community of the value of this antifraud work,
the NIV chief has been so involved in it that she has not given sustained attention to
the development, mentoring, and guidance of the ELOs in her unit or to the step-by­
step review and updating of the unit’s workflow. The NIV chief’s office is removed


                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   25


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     from the interview and processing area, and although she has an open-door policy,
     it is difficult for officers to step away from the interview windows to consult her and
     impossible for her to oversee the intake and interview processes from her office. In
     2010, she has also been absent from post for over 15 weeks of annual, administrative,
     home, or rest and recuperation leave. Consequently, ELOs have been trying to lead
     themselves but feel uncomfortable with some of the decisionmaking that has been
     left to them. They are not certain that their supervisors know what hurdles they have
     faced or what they have accomplished, other than the notes that they themselves
     prepare for the rating and reviewing officers to use in drafting their evaluations.

     CA makes it clear in Foreign Affairs Handbook citation 7 FAH-1 H-311 a. that
     “people are the most important resource in a consular section.” Leading and supervis­
     ing them are a manager’s most important jobs. In 7 FAH-1 H-240, CA also outlines
     concrete ways that consular managers can demonstrate leadership. Among other
     things, CA insists on hands-on management, which includes “talking to staff about
     their work” and “working the NIV line.” Consular managers have made a number
     of adjustments to customer workflow, but much remains to be done with back office
     practices. A thoughtful and consultative review of those processes (including inter­
     viewing techniques, issuance and refusal criteria, LE staff roles in the CEAC process,
     LE staff work distribution, LE position descriptions in the new paperless process,
     file holdings and destruction, and customer relations) can improve procedures and
     rebuild the unit’s morale.


        RECOMMENDATION 8: Embassy Tel Aviv should incorporate specific
        management milestones into the nonimmigrant visa chief’s work requirements
        statement that address the minimum amount of time per week that the chief
        should spend working on the floor of the nonimmigrant section, including
        interviewing applicants. (Action: Embassy Tel Aviv)


     All officers deserve regular feedback on their performance, but supervisors are
     expected to pay particular attention to ELOs so that they will develop the skills
     and attitudes necessary for a successful career. Most of the ELOs in the NIV unit
     were unaware that they had counseling statements in their ePerformance files that
     were based on brief meetings with their supervisor that they were not even sure were
     counseling sessions. Those counseling statements that were available were essentially
     generic, with one- or two-word statements in most fields and the same area for
     improvement for all first-tour officers. That “area for improvement” statement was
     essentially a comment that the officer was on his or her first tour and therefore had
     much to learn. The performance review document itself states that it is “to serve as a
     record that a thorough performance discussion occurred, and to help ensure that the
     rating officer and rated employee have a compatible view of the outcome.”



26                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




    RECOMMENDATION 9:  Embassy Tel Aviv should establish and adhere to
    a schedule for the periodic counseling of nonimmigrant visa entry-level offi­
    cers and require sufficient documentation so that each officer receives thor­
    ough, individual feedback. (Action:  Embassy Tel Aviv)



American Citizens Services
Tel Aviv’s first-time passport workload is second only to London’s. The complexity
of its citizenship cases, the average family size for consular reports of birth abroad,
and fraud related to one particular group of potential American citizens mean that
the citizenship workload is as complex as it is voluminous. Consular reports of birth
alone can take hours of LE staff and officer work because many parents have diffi­
culty demonstrating sufficient time spent in the United States to transmit citizenship.
As described earlier, Americans resident in Israel will bring every resource to bear,
including U.S. congressional and Israeli cabinet-level pressure, to get instant service.
The ACS unit is often operating in emergency mode for what would be routine
passport services elsewhere.

Special consular services require urgent responses even as the staff is handling routine
appointments. On one day during the inspection, the consul general and ACS chief
were dividing their time among three complicated ACS cases, including the arrest
of six Americans on one night, the detention and beating of an American family in
another part of the country, and a number of congressional inquiries relating to the
death of an American-Turkish dual citizen in the boarding of a ship attempting to
break the Israeli blockade of Gaza. Special consular services are more difficult to
quantify than citizenship services, but they require significant time to manage and
involve political sensitivities as well as travel to monitor cases outside Tel Aviv.

The OIG team compared Tel Aviv’s citizenship, notarial, and special consular services
workloads and staffing with other high-volume ACS units worldwide and concluded
that Tel Aviv’s unit is overly lean on the officer side. The consular section recently
requested the reprogramming of an NIV ELO position to a mid-level NIV/FPM
position. This medium-fraud post needs a part-time FPM position that is not also the
NIV chief, but a mid-level ACS/FPM position would better meet consular section
needs. Stripping a full-time ELO position from the NIV unit just as the workload is
beginning to increase may be shortsighted.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   27


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




        RECOMMENDATION 10: The Bureau of Consular Affairs should estab­
        lish an additional mid-level position in the Tel Aviv consular section to serve
        as a half-time fraud prevention manager and a half-time American citizens
        services officer. (Action: CA)


     The embassy’s ACS unit is headed by an FS-03 officer. Most ACS chief jobs in
     sections with the same volume and complexity of workload are at the FS-02 grade
     level. Having a more experienced ACS chief would also allow the consul general to
     give equal attention to NIV oversight and provide more mentoring for the larger
     number of ELOs in the NIV unit.


        RECOMMENDATION 11: Embassy Tel Aviv should submit to the Bureau
        of Consular Affairs a request and justification for upgrading the American
        citizens services chief position to the FS-02 grade level. (Action: Embassy Tel
        Aviv)


     Tel Aviv is a federal benefits claims post. The Social Security Administration funds
     two LE staff members to manage a heavy case load from a small enclosed office
     within the ACS unit. The employees get regular training, instruction, and oversight
     from their agency, and the ACS chief integrates them into the unit by including them
     in staff meetings and events, loaning them personnel resources when needed, and
     preparing their evaluations as required by Foreign Affairs Manual citation 7 FAM
     590.

     Tel Aviv oversees a consular agency in the port of Haifa. Although Haifa is less
     than 90 minutes from Tel Aviv, the 20-year consular agent serves a large number of
     Americans in the north of the country and in the Golan. His passport and consular
     reports of birth statistics are higher than those of many consular sections. The
     consular agency operates out of the agent’s private law office, and instead of renting
     agency space and funding an LE staff assistant, the Department reimburses the agent
     for a fixed percentage of his operating costs, including the time of an administrative
     assistant. The agent is well connected in the community and assists in the organiza­
     tion of community relations projects when the U.S. fleet is in port as well as in other
     embassy activities. Because the agent’s administrative assistant cannot participate in
     the embassy’s awards program, the OIG team made an informal recommendation
     that the consular section provide occasional certificates of appreciation for her work.
     The OIG team also informally recommended that the ACS unit provide immedi­
     ate feedback to the agent when his consular report of birth cases require Tel Aviv’s
     follow-up because of insufficient documentation.


28                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



In addition to the consular agency, the ACS unit also serves large numbers of
American citizens through periodic “road shows” conducted by an officer and one
or two LE members of staff. Providing notarial services and taking passport applica­
tions in the hinterlands relieves pressure on the limited ACS waiting area and gives
employees a chance to conduct outreach, build useful contacts, and reach out to
wardens outside the metropolis.


Nonimmigrant Visas
Tel Aviv’s NIV workload fell off sharply between FYs 2008 and 2009 but appears
to be growing again steadily. The decreased overall numbers facilitated the staff’s
smooth transition to the CEAC process, which usually reduces efficiency initially.
Management recently took steps to provide better printer line of sight, but it is still
important to review overall workflow and efficiency in light of the conversion to
paperless processing. The OIG team left consular management a list of areas that
need review, including the updating of LE staff position descriptions. The consular
management portion of this report outlines the inefficient use of the interviewing
windows and its impact on waiting room congestion and public service.

Although the NIV unit approves most visa applications, two types of applications
complicate processing and require attention. Many visa applicants work in the tech­
nology field, and the number of cases requiring additional administrative processing
is significant as a result. One ELO acts as (b)(2)(b)(5) coordinator, reviewing all
relevant applications and their supporting documents for consistency, but there is
considerable debate among the NIV interviewers about which types of applicants
should and should not be subject to the (b)(2)(b)(5) process. The OIG team made an
informal recommendation that consular management organize an annual digital
videoconferencing for all interviewing officers and their supervisors with the CA
office that oversees the (b)(2)(b)(5) process to ensure internal consistency and a process
in line with other embassies handling similar cases.

The second type of application requiring a coordinated approach involves visa
applications by Israeli youths who have just completed their military service. These
applicants are neither employed nor at university and would be refused routinely at
many other posts. In Israel, young adults often use this gap time to travel the world,
often for pure tourism but sometimes for work. Even the children of prominent
families may plan to work for several months in the United States during this period.
The NIV unit is interviewing this demographic more carefully, but the unit often
resorts to issuing 1-year visas rather than refusing these applicants. The explanation 

is that when applicants renew their limited visas, officers will have a chance to review 

their travel before issuing a longer-term visa. As with MANTIS cases, not all officers 



(b)(2)(b)(5)


                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   29


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED


     adjudicate these cases the same way. Furthermore, limiting visas to 1 year does not
     prevent the inappropriate use of a tourist visa to work clandestinely.


         RECOMMENDATION 12: Embassy Tel Aviv should examine its criteria for
         adjudicating visas for former Israeli military conscripts and codify procedures
         after conducting targeted validation studies of this demographic. (Action:
         Embassy Tel Aviv)


     Tel Aviv’s overall NIV refusal rate is low, reflecting the generally strong ties that
     Israeli citizens have to their country. When consular officers refuse an application as
     a result of an interview, they generally have a well-considered reason for doing so. Tel
     Aviv’s interviewing officers report occasional (b)(2)(b)(5) pressure to issue NIVs to
     persons known to the consul general or to other embassy staff or to reconsider cases
     that had already been refused. Officers also reported subtle pressure to avoid submit-
     ting some high-profile application cases for administrative processing. According to
     9 FAM Appendix K, 106 d., “[t]he only appropriate venue for expressing a prefer-
     ence that a case be issued or accorded procedural advantages is the referral system.”
     Attempts to relay information regarding a visa case outside the referral process are
     categorically inappropriate. The OIG team counseled the consul general on the
     proper course of action in such cases.

     NIV staffing includes three EFM positions. At the time of the inspection, two EFMs
     shared the job of verifying fingerprints. One prepares the security advisory opinion
     submissions for review by an officer but also occasionally assists with fingerprint
     verification. As discussed earlier, if officers verified fingerprints at the time of inter-
     view, thereby freeing up an additional window for interviewing, two EFM positions
     could be redirected. The EFM who prepares the security advisory opinions is often
     backlogged, and the federal benefits unit requires regular assistance with its routine
     tasks. The OIG team informally recommended the recasting of the EFM position
     descriptions to address these other needs.

     The NIV unit, which includes an efficient correspondence subunit, is retaining
     too many old documents. The OIG team informally recommended that employees
     destroy old chronological files and several file cabinets of miscellaneous information
     being retained in the processing area and consolidate E visa company files.




30                      OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




               BEST PRACTICE: Identifying Emergency Appointment
               Requests in the Nonimmigrant Visa Email Box

               Issue: Most consular sections provide for NIV emergency appointments and
               inform applicants to request and justify their emergency travel through an
               NIV email box. Some large sections have a special email address for emergency
               travel requests, but other small-to-medium sections use one email box for all
               NIV inquiries, including emergency appointment requests. Staff members
               then manually separate out the emergency appointment requests from the
               other inquiries in the email box. Requests for expedited appointments received
               throughout the work day may await attention for several hours and can be
               overlooked in the press of competing priorities.
               Response: Embassy Tel Aviv uses the Outlook rules and alerts function to
               identify common words used in the majority of the requests for emergency
               NIV appointments. When the email box receives messages containing those
               key words, the incoming email is automatically redirected to a separate folder,
               where staff can easily see that a new request has been received and give it prior­
               ity attention.
               Result: The correspondence unit does not have to conduct a detailed early
               morning review of its email box and can quickly track new emergency requests
               throughout the day, addressing those requests promptly even if the volume of
               routine messages in the email box is large or staff is assigned other competing
               duties on any given day.



Tel Aviv has an active Visas Viper program, coordinated by an NIV ELO. The DCM
normally chairs Visas Viper meetings, and the consular section processes any submis­
sions according to the latest CA guidance.


Fraud Prevention Unit
The OIG team’s recommendation that the NIV chief not be dual hatted as the FPM
and that a separate mid-level ACS/FPM position be established appears earlier in
this report. This recommendation does not detract from the yeoman’s work that the
current NIV chief has done (b)(7)(C)(b)(7)(F)
Tel Aviv’s fraud prevention effort has three components: the fraud prevention unit,
an assistant regional security officer for investigations (ARSO-I), and a nascent visa
security program.

The fraud prevention unit includes two LE fraud investigators. They make expert
use of tools and contacts developed in their previous careers, and the NIV and
ACS units refer cases to them regularly. At the time of the inspection, the arrival
of a new ARSO-I was imminent, and the ARSO-I office included a relatively new


                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   31


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     investigative assistant position. The Department of Homeland Security’s Bureau of
     Immigration and Customs Enforcement had just sent the first of three officers to
     Tel Aviv to set up a visa security program. Consular management carved a small
     workspace out of its already overcrowded work area to provide offices for one Bureau
     of Immigration and Customs Enforcement officer and one LE member of staff that
     were adjacent to both the ARSO-I and the fraud prevention unit’s two investigators.
     The proximity of these three investigative components is ideal for the synergy needed
     for a coordinated antifraud effort.

     Consular management has not given priority to validation studies that would
     confirm the reliability of certain classes of travelers or identify other vulnerable
     groups. They did conduct a camp counselor validation study a couple of years ago
     and found some violations of that exchange visitor program. In addition to the
     validation study of post-military travelers mentioned earlier, the OIG team informally
     recommended that the fraud prevention and NIV units cooperate in validating the
     travel of other groups that are issued visas routinely and share those results with
     Consulate General Jerusalem so that the two consular sections can adjudicate the
     same demographic consistently.

     Referrals, cashiering, and accountable officer issues are discussed in the management
     controls section of this report.




32                    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                   SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




RESOURCE MANAGEMENT


                                             U.S.             U.S.
                                            Direct-          Local-         Foreign                               Total
              Agency
                                             Hire             Hire          National            Total           Funding
                                             Staff            Staff          Staff              Staff           FY 2010
State – D&CP                                         54                 7              42             103           $6,669,979
State – ICASS                                        24               10              128             162          $13,686,411
State – Public Diplomacy                               5                               30               35          $3,436,640
State – Diplomatic Security                          10                               193             203           $6,929,771
State – Marine Security                              10                                 3               13            $381,517
State – Representation                                                                                                 $84,538
State – OBO                                                                                                         $4,476,169
Foreign Commercial Service                             2                               10               12            $909,806
Defense Attaché Office                               20                                 4               24          $1,286,545
Office of Defense Cooperation                          3                                1                4         Not Serviced
Air Mobility Command (DOD)                             1                                1                2         Not Serviced
COMSEC (DOD)                                           2                                                 2         Not Serviced
USAF Europe (DOD)                                      1                                1                2         Not Serviced
Training and Doctrine Command
                                                       1                                                 1         Not Serviced
(DOD)
DOD Students                                           3                                                 3         Not Serviced
Missile Defense Agency (DOD)                           2                1                                3         Not Serviced
Defense Contract Management
Agency/Defense Contract Audit
                                                       9                               12               21         Not Serviced
Agency
US Army Corps of Engineers                             8                               12               20         Not Serviced
Force Protection Detachment                            3                1                                4         Not Serviced
Foreign Agricultural Service                                                            3                3            $328,618
Open Source Center                                     3                               23               26         Not Serviced
Federal Bureau of Investigation                        4                                                 4         Not Serviced
Department of Homeland Security                        1                                                 1         Not Serviced
USAID                                                25                                95             120          Not Serviced
Foreign Assistance, e.g.,                                                                                            Estimated
MERC, CMM                                                                                                           $6,000,000

Totals                                             191                19             558             768          $44,189,994



                            OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011                     33


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     The management section performs generally well at the business transaction level,
     providing adequate services across the full International Cooperative Administrative
     Support Services (ICASS) spectrum to its large customer base. The annual ICASS
     customer satisfaction survey and OIG questionnaires administered shortly before the
     inspection generated similar results: With a few exceptions, ICASS service providers
     met or exceeded the averages for each category. However, the OIG team identified a
     number of cost centers that merit serious consideration for consolidation, reengineer­
     ing, or reallocation. Improvement in these areas could alleviate some of the embassy’s
     space shortages, eliminate redundancies, make more efficient use of government
     assets, and minimize the footprint of a danger-pay post.




     VISITOR SUPPORT
     In early 2010 the embassy reorganized its system for supporting official visitors with
     the intent of complying with the 2005 OIG recommendation in this area. The OIG
     team found that, although overall visitor support is adequate, the embassy could
     do better. The 2005 report noted, for example, that visitor control duties place an
     unusually heavy burden on the time of political and economic officers. This contin­
     ues to be the case. (See the political section of this report for an informal recom­
     mendation made by the OIG team to relieve some of this burden by redistributing
     responsibilities within that section. The burden of visitor support is also discussed in
     the section on public affairs.)

     The 2005 report tasked the embassy to develop a dedicated visitor unit to handle
     its large number of high-level visitors. In its 2011 MSRP, the embassy requested an
     additional American position to direct such a unit. The Department added one new
     senior management position, and the embassy created a separate visitor unit, but the
     embassy did not assign the new officer to head the visitor unit. Instead, it designated
     the new position as a deputy management counselor, using it primarily for day-to-day
     control over general services, human resources, financial management, and facilities
     management. A smaller portion of the officer’s duties were to be devoted to the visitor
     unit.

     This arrangement does not fully respond to the intention of the 2005 OIG recom­
     mendation and in some ways generates other inefficiencies. First, it fails to alleviate
     the workload of political and economic officers, who still pay significant opportunity
     costs when working the preparatory and execution phases of visits. Second, the
     creation of a deputy management counselor inserts an additional, unnecessary layer
     of bureaucracy between business operating units and the management counselor.
     Embassy Tel Aviv does not have the overall size or constituent posts that would
     require such an organizational structure.


34                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




    RECOMMENDATION 13: Embassy Tel Aviv, in coordination with the
    Bureau of Near Eastern Affairs, should reassign its management officer posi­
    tion (Position Number 50129001) to serve primarily as director of its visitor
    support unit. (Action: Embassy Tel Aviv, in coordination with NEA)


The OIG team found that the embassy could increase the efficiency with which it
supports important visitors if the political, economic, public affairs, and management
sections all had a better understanding of the part that each one needs to play in this
work. Before determining the structure of its proposed new visitor unit, the embassy
needs to map the steps in its current process for supporting visitors to identify bottle­
necks and determine which steps can be best performed by officers, office manage­
ment specialists, LE staff, or others. Such a study could assist in the determination
of which of the various changes under consideration, such as whether to reprogram
one of the office management specialist positions in its economic or political section,
would be most effective.


    RECOMMENDATION 14: Embassy Tel Aviv should define its processes,
    analyze personnel functions and roles, devise a system, and reallocate resources
    as necessary to provide effective visitor support while minimizing distractions
    to political and economic control officers and allowing participation by first-
    and second-tour officers to enhance their experience level. (Action: Embassy
    Tel Aviv)


The embassy observes a Monday-to-Friday workweek. Although this schedule facili­
tates communication with Washington, it makes the embassy out of sync with the
local workweek of Sunday to Thursday. This causes the mission to lose significant
productivity in some areas that require interaction with local entities that are closed
on Friday, when the embassy is open, and are open on Sunday, when the embassy
is closed. Moreover, embassy personnel who must transact business on Sunday
are working overtime, whether compensated or uncompensated. On the Sundays
between pay periods 9 and 21 of 2010, for example, the public diplomacy and general
services section LE staff worked a total of 3,211 hours of overtime or compensatory
time. The majority of other posts at which the local workweek is Sunday to Thursday
have adopted it as their own. Although the Monday-to-Friday workweek is popular
with the staff, the embassy should base its work schedule on a broader range of
considerations.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   35


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




         RECOMMENDATION 15: Embassy Tel Aviv should conduct a compre­
         hensive cost-benefit analysis, including mission objectives, operational effect,
         lost productivity, overtime costs, and impact on morale, upon which to base
         a decision on the workweek observed by the embassy. (Action: Embassy Tel
         Aviv)


     The embassy has had limited success in implementing the Department’s flagship
     Collaborative Management Initiative. The embassy implemented the eServices
     component in mid-November 2009, which was much later than the July 1, 2009,
     date established by the Department’s Regional Initiatives Council. Like many posts
     worldwide, it is still adjusting to eServices as the standard means by which customers
     submit requests to ICASS providers. Internally, the management section is working
     to define thresholds that justify eServices requests so as to avoid trivial requests that
     could reduce responsiveness and cause bottlenecks.

     Externally, the embassy has reported to the Office of Policy, Rightsizing, and
     Innovation its assessment that some service metrics and standards do not accu­
     rately capture the complexity or quality of service being rendered by providers.
     Furthermore, some service providers are concerned that eServices metrics in the
     future will dictate financial resource allocations, resulting in a singular focus on
     fulfillment statistics to the exclusion of other, equally important, aspects of the
     Department’s management initiative. For example, the embassy has paid too little
     attention to defining and mapping processes and developing standard operating
     procedures, which also are essential parts of a larger quality management system. As
     the embassy got off to a late start on the Collaborative Management Initiative and
     the management section leadership is new, the OIG team informally recommended
     that the embassy invest more time and effort into the other components of the
     initiative.

     Communication between management and LE staff requires improvement. Town
     hall meetings with the front office are rare. Meetings between the LE staff commit­
     tee and management section leadership are ad hoc and therefore most frequently issue
     oriented. Moreover, issues can become more serious and rumors can gain a foothold
     during the time leading up to these impromptu meetings. This situation occurred
     when the latest salary increase was delayed from a target date of August to the actual
     implementation date of September; when there was a time lag between the enactment
     of local laws affecting benefits and their incorporation into the local compensa­
     tion plan; and when a long-delayed audit of the embassy’s supplemental retirement
     program provider continued to languish. The OIG team met with the LE staff
     committee and embassy leadership, underscoring the importance of communication
     on a regular basis to exchange information and address potential issues before they
     develop into rumors and problems.


36                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




   RECOMMENDATION 16: Embassy Tel Aviv should develop and imple­
   ment a plan that requires regularly scheduled meetings between management
   and the locally employed staff committee as a means to improve communica­
   tion within the organization on issues of mutual concern. (Action: Embassy
   Tel Aviv)




RIGHTSIZING
Embassy Tel Aviv is a Tier Three post, a category that consists of all posts where
Department and USAID will not be colocated by the end of FY 2010. The two
agencies issued joint guidance (09 State 087452 and 09 State 123469) directing posts
in this category to develop plans to consolidate 13 administrative support services,
with a goal of implementation by October 1, 2010. Embassy Tel Aviv has made some
progress in these areas and was granted a waiver for motor pool services, but its plan,
dated May 2010, is more a status report than a real plan. It does not appear that the
embassy has undertaken many of the leadership and communication components of
consolidation that are listed in its cable transmitted on December 2, 2009.


   RECOMMENDATION 17: Embassy Tel Aviv should develop and imple­
   ment a consolidation plan that addresses each of the 13 administrative
   support services as prescribed and agreed upon by the State/U.S. Agency for
   International Development Joint Management Council in Department tele­
   grams 09 State 087452 and 09 State 123469. (Action: Embassy Tel Aviv)




HUMAN RESOURCES

The human resources unit achieved scores that met or exceeded ICASS customer
satisfaction survey and OIG questionnaire averages. Staff members are knowledge­
able, maintain files in a neat and complete manner, and use a number of Excel
spreadsheets effectively to track personnel actions that are upcoming or due. Most
of the areas requiring improvement and attention pertain to the local compensation
plan shared with Consulate General Jerusalem and are addressed in the appendix
on joint issues included at the end of this report as well as in the related report,
Joint Issues in the Inspections of Embassy Tel Aviv and Consulate General Jerusalem
(ISP-I-11-35).
                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   37


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Embassy Tel Aviv is out of step with the vast majority of posts in the area of LE
     staff performance management. For example, it does not adhere to the 3 FAM 7611
     requirement to use Form JF-50 for Foreign Service national staff evaluations. Instead,
     it uses a self-designed form, approved by NEA, for certain staff positions and an older
     version of Form JF-50 for others. The OIG team identified three potential issues
     regarding this performance management system. First, it appears to contravene the
     3 FAM 7611 requirement to use Form JF-50. Second, it appears to fly in the face of
     Collaborative Management Initiative tenets pertaining to uniformity and standard­
     ization, particularly in an area as common as LE staff performance management.
     Third, the OIG team found it surprising that an embassy would choose not to adopt
     a policy and practices that purport to improve significantly the performance manage­
     ment system for LE staff.


         RECOMMENDATION 18: The Bureau of Human Resources should
         reconcile the requirement to use Form JF-50 to evaluate locally employed staff
         employees, found in Department regulations and in its Locally Employed
         Staff Performance Management Policy Guidebook, with the exemptions
         granted to the Bureaus of Near Eastern and South and Central Asian Affairs.
         (Action: DGHR)


     The embassy local guard force has extremely stringent recruiting requirements that
     result in only a 3 percent yield of successful candidates from an applicant pool that
     normally numbers 300. There are three recruiting cycles per year. These high stan­
     dards of physical fitness and military experience require subject matter expert partici­
     pation throughout the process, with the result that a senior guard spends much of his
     time administering physical fitness tests, reviewing résumés, interviewing candidates,
     and confirming applicant bona fides. These duties constitute a large amount, if not
     the majority, of the senior guard’s workload, yet his position description is the same
     as other senior guards.


         RECOMMENDATION 19: Embassy Tel Aviv should revise the position
         description of senior guard Position Number A56-270 to reflect its duties
         accurately and reclassify and regrade the position, if appropriate. (Action:
         Embassy Tel Aviv)


     Some LE staff members expressed a lack of confidence in the human resources unit,
     believing that it applies some rules inconsistently, errs on the side of management
     whenever there is any doubt, and does not keep staff members apprised of the status
     of personnel issues. As the OIG team saw no sign of systematic or widespread bias, it


38                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



is likely that these perceptions are largely the result of poor communication, which is
addressed elsewhere in this report.




FINANCIAL MANAGEMENT
The financial management office is well run and staffed by knowledgeable and
capable personnel. It delivers a satisfactory level of service to its customers, as
reflected in ICASS customer satisfaction survey and OIG questionnaire scores. Some
scores fall slightly below averages, but within one standard deviation. Examination of
internal processes and coordination with other offices yielded positive results, though
some areas for improvement exist.

The financial management office is taking advantage of tools such as debit cards for
LE staff performing temporary duty, thereby reducing cash risk and streamlining
the travel advance process. It also used partial year invoices to convert funds contrib­
uted by agencies to the post’s extensive residential furniture pool. This resulted in
a 3 percent savings that totaled $15,000 on orders placed against the Department’s
mandatory furniture contract. The financial management office also is resurrect­
ing the use of blanket purchase agreements after a 3-year hiatus, working with the
general services office (GSO) and using Excel spreadsheets on a shared drive to
monitor bulk funding and calls placed against the agreements. Using bulk funding
blanket purchase agreements and purchase cards is a Department best practice that
requires close collaboration between financial management and general services and
is evidence of the good relationship between the two offices. In FY 2010, Embassy
Tel Aviv sent 2,072 vouchers to the Post Support Unit in Bangkok for processing,
placing it fourth behind Embassies Baghdad, Port-au-Prince, and Riyadh for the
largest number of vouchers outsourced by an embassy. This highlights the capabilities
of the Post Support Unit to handle the full range of payment vouchers and validates
the concept of regionalizing the service at a lower cost location.

The financial management office has also played a helpful role in assisting PAS
administer millions of dollars in grants funded by USAID. Although the mission
does not yet have an adequate system to administer all grants (see the grants program
section of this report), the financial management officer has provided important
advice to both PAS and USAID in determining possible solutions.

Some financial areas of the supply chain management system require remediation.
First, the financial management office is not serving as the embassy’s designated
billing office; instead, invoices are being sent to procurement or other offices, which
is contrary to the normal practice of centralizing billing for management and prompt
payment control purposes. Second, the financial management office does not


                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   39


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     have sufficient permissions to access receiving reports in the WebPASS (Web Post
     Administrative Software Suite) procurement application, which would allow more
     prompt payment for goods and services rendered. Third, the financial management
     office does not notify the procurement section of final payment of invoices, which is
     necessary for the procurement office to close out purchase orders properly. Correcting
     these shortcomings will improve internal controls at critical points in the supply
     chain.


         RECOMMENDATION 20: Embassy Tel Aviv should make its financial
         management office the post’s designated billing office. (Action: Embassy Tel
         Aviv)




         RECOMMENDATION 21: Embassy Tel Aviv should give its financial
         management office access to receiving reports in the Web Post Administrative
         Software Suite procurement application. (Action: Embassy Tel Aviv)




         RECOMMENDATION 22: Embassy Tel Aviv should develop and imple­
         ment a system by which its financial management office advises its procure­
         ment section of final payment of invoices to facilitate closeout of purchase
         orders. (Action: Embassy Tel Aviv)


     The Class B cashier offers accommodation exchange, which, as 4 FAH-3 H-361.2
     c. points out, increases the cashier’s advance and the risk of receiving an uncollect­
     ible check. Accommodation exchange also significantly increases the workload of
     the Class B cashier. Department regulation 4 FAH-3 H-361.2 a. requires a chief of
     mission determination to provide this service based on specific considerations, such
     as the availability of satisfactory local commercial banking facilities, automated teller
     machines, or currency exchange services. The mission did not have a current chief of
     mission determination on hand.


         RECOMMENDATION 23: Embassy Tel Aviv should determine whether
         to provide accommodation exchange based on the guidance provided in the
         Foreign Affairs Handbook. (Action: Embassy Tel Aviv)




40                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



The voucher unit employees expressed some questions and concerns regarding their
position descriptions and grades. The financial management officer explained his
plan to review the unit supervisor’s position description first, as he had concerns that
it did not capture all pertinent elements, after which he would address the voucher
examiners’ concerns.




INTERNATIONAL COOPERATIVE ADMINISTRATIVE
SUPPORT SERVICES
The ICASS system appears to be working adequately, and the council engages
appropriately on major issues. A good example of how the council works occurred in
February 2010, when it addressed options pertaining to major upgrades to the vehicle
fleet and furniture pools, the establishment of a visitor support unit, and training of
ICASS personnel. Records indicate that the service provider staffed and presented
the options well, that open and collegial discussion took place, and that the council
reached consensus agreement. The council chairperson characterized relations with
the embassy service provider as excellent and provided memorandum comments
regarding service quality and responsiveness for input into the service provider annual
employee evaluation reports.

Although some documentation of ICASS proceedings exists, there is no clear reposi­
tory for documents such as council meeting minutes. Minutes are not posted on a
Web site or shared drive for access, and the management section could not easily
retrieve such documents for inspectors. It does not appear that minutes of council
meetings are being kept in accordance with 6 FAH-5 H-222.3-7, which requires
them to be kept for at least 3 years beyond the fiscal year in question. The OIG team
made the same finding regarding documentation and minutes for the ICASS budget
committee, which has the same requirement under 6 FAH-5 H-222.4-1 h.


    RECOMMENDATION 24: Embassy Tel Aviv should produce and maintain
    documentation of International Cooperative Administrative Support Services
    council and budget committee meetings in accordance with Department regu­
    lations. (Action: Embassy Tel Aviv)




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   41


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     GENERAL SERVICES
     GSO provides quality services to the embassy, as evidenced by high scores on OIG’s
     workplace and quality of life questionnaires and by comments received. Scores in
     virtually all areas of GSO operations were well above average, with the motor pool
     and travel services scoring particularly high. The office demonstrates innovation
     in the solutions it has developed for a number of challenges due to the condition of
     workspaces, local conditions, size of the mission, and high visitor load.


                    BEST PRACTICE: General Services Ombudsman


                    Issue: Embassy Tel Aviv regularly hosts unaccompanied families while their
                    Foreign Service sponsors serve unaccompanied tours in Iraq or Afghanistan.
                    The Defense attaché’s office also hosts a number of students in Israel, who
                    are under chief of mission authority but do not work within the mission itself.
                    The new eServices process for general services requests and maintenance work
                    orders requires access to the mission’s OpenNet system, which these families
                    and students do not have.

                    Response: The administrative assistant in GSO was named the ombudsman
                    for these unaccompanied families and defense students. The ombudsman
                    maintains emergency contact information for the embassy and sends out infor­
                    mation about mission news and events on a regular basis by email. The families
                    and students can ask for general services and facilities assistance by calling the
                    ombudsman, who enters their requests into the eServices program and tracks
                    the progress of these requests.

                    Result: The ombudsman successfully provides a link between the mission and
                    the unaccompanied families and students. The families feel included in the
                    community and are guaranteed a continued level of support and services.



     GSO has a close and productive working relationship with the facilities maintenance
     office. They have developed a smooth and efficient system to manage eService work
     orders and requests by defining primary “ownership” of the requests and processes
     when a task involves both of their offices, such as in housing maintenance.


     Travel Management
     The travel office tracks the travel of both mission personnel and visitors. By track­
     ing the costs of visitor support and providing thorough documentation, it enables
     the mission to recover these costs from visitors. Like most embassies, however, Tel
     Aviv does not attempt to track or document the many hours of overtime that control


42                    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                   SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



officers spend supporting visitors from the executive branch or Congress because
most of these officers are not eligible for individual compensation for their overtime.
As part of the analysis of visitor support costs recommended previously, the embassy
plans to review and consider documenting this uncompensated overtime.


Housing and Real Estate
The Tel Aviv housing pool includes 189 residences, 39 of which are government-
owned properties. Even with participation in the rental benchmark initiative, the
housing unit has difficulty finding new leases that meet both the standards for
government housing and the limits on lease costs. The average annual lease in the
pool is $40,000, and the embassy frequently requests a waiver from the Bureau of
Overseas Buildings Operations (OBO) to sign for leases exceeding $50,000.

Due to the mix of government-owned and leased housing, the embassy experienced
a period of confusion over maintenance responsibility when the facilities mainte­
nance office was moved out of GSO. The implementation of eServices last year
also presented a challenge in defining responsibility for maintenance requests from
occupants of leased housing. GSO and the facilities manager developed a successful
process by which all housing maintenance work orders are submitted to the facili­
ties office, which then makes an evaluation of whether the necessary maintenance
is a post or landlord responsibility. If it is the responsibility of the landlord, facilities
will submit a request to the GSO housing office to contact the landlord and make
arrangements for the repair. The facilities office retains ownership over the work
order and works with the housing office to schedule entry for contractors, and then
confirms the work has been completed before closing out the work order.

GSO also works with the facilities office to maintain government-owned housing.
Most of the owned housing was built in the late 1960s or early 1970s and needs
substantial upgrades after years of neglect. GSO and facilities maintenance are slowly
renovating government-owned houses as they are turned over to new occupants.
In addition to the current housing pool, the embassy owns two houses that are not
occupied as residences. One of these, (b)(2)(b)(5)                    served in the past
as headquarters for the Foreign Broadcast Information Service. Though the organiza­
tion is no longer operating there, the communications equipment is still present and
prevents the embassy from using the building as a residence. (The embassy does use
it on occasion for temporary quarters, but most of the time it sits vacant.) Houses of
similar size and location in the embassy’s housing pool are being leased for an average
of $38,000 a year. The embassy estimates that renovating the house for residency
will cost approximately $80,000. This cost would be recovered within 3 years by the
saved lease value of the house.




                   OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   43


                SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



         RECOMMENDATION 25: The Bureau of Overseas Buildings Operations,
         in coordination with Embassy Tel Aviv, should remove the communications
         equipment from the house on 20 Hazorea Street, formerly occupied by the
         Foreign Broadcast Information Service, and renovate the property to bring it
         back to residence standards. (Action: OBO, in coordination with Embassy Tel
         Aviv)


     The second house was the subject of a 2008 memorandum of understanding between
     the embassy and (b)(2)(b)(5)(b)(6)


                                                Under the terms of the memorandum of
     understanding, the embassy would provide up to $10,000 in upgrades to the resi-
     dence as well as roving local guard services. The school would pay an annual rent of
     $100.

     Records on the negotiations of this arrangement are minimal. GSO staff report that
     the management counselor at the time handled the matter personally. There are no
     records to indicate whether the management counselor consulted with the inter-
     agency housing board, OBO, or the Office of the Legal Adviser on the propriety of
     leasing U.S. Government property that is meant to be used as a residence to a private
     organization or charging such a nominal sum for this lease—or indeed whether
     other terms of the agreement were appropriate (including safeguards against liabil-
     ity). There are also no records to indicate whether appropriated funds were used to
     upgrade the facility or that the agreed-upon rent of $100 a year has been collected.
     (b)(2)(b)(5)(b)(6)


                                             In the meantime, the cost to lease a replace-
     ment house is estimated at $38,000 a year.


         RECOMMENDATION 26: The Bureau of Overseas Buildings Operations,
         in coordination with Embassy Tel Aviv and the Office of the Legal Adviser,
         should review the memorandum of understanding (b)(2)(b)(5)(b)(6)
                                                  and related files to determine whether
         continued leasing of the residence is appropriate, whether terms of the memo-
         randum of understanding are sufficient, and, if appropriated funds were used
         for upgrading the property, whether this was proper procedure. (Action: OBO,
         in coordination with Embassy Tel Aviv and L)




44                        OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                      SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED


A number of houses in the embassy pool are located on oversized lots. For example,
57 Hassadot is on 0.89 acres of land, roughly half of which is not used at all. In the
past, the embassy inquired with the municipality about subdividing some of these
lots for development, but there is no record of the response or any follow-up. In the
meantime, these lots are underutilized and present an opportunity to develop more
housing or sell the property to a developer.


    RECOMMENDATION 27: The Bureau of Overseas Buildings Operations,
    in coordination with Embassy Tel Aviv, should conduct a real property utiliza­
    tion survey and prepare a plan to develop or sell any underutilized property.
    (Action: OBO, in coordination with Embassy Tel Aviv)


Embassy Tel Aviv authorized two homes to be leased on living quarters allowance.
One is located in Haifa; the second was leased by an agency that has no other
employees at post and was establishing a temporary 1- to 2-year position. Both
properties were inspected by the residential security coordinator, but they are not
included in the post’s real property application data. The OIG team made an infor­
mal recommendation to correct this. The post housing handbook and the guidebook
for the interagency housing board make no mention of a post policy on living
quarters allowance or the process to approve such leases. There is also no record that
the interagency housing board was involved in the approval process as required by 15
FAM 236.


    RECOMMENDATION 28: Embassy Tel Aviv should develop a post policy
    on living quarters allowance approvals to include in the post housing hand­
    book and the interagency housing board guidebook. (Action: Embassy Tel
    Aviv)



Official Residences
Embassy Tel Aviv owns residences for both the Chief of Mission and the DCM. The
chief of mission residence is ideally located on the coastline, with the capacity to host
large representational events on a regular basis. The external buildings were recently
renovated to provide more workspace for the official residence staff and replace the
out-of-date chilling system. The staff is currently using the outdoor area where the
old chiller was removed for storage, but the area is not designed for regular use and
presents a safety hazard to the staff. The OIG team made an informal recommenda­
tion to stop using this area.



                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   45


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Expendable and Nonexpendable Property Management

     The embassy’s warehouse is badly undersized and in poor condition, making it diffi­
     cult to maintain a well-organized stock of expendable and nonexpendable property
     for the mission. The storage area itself is not sealed, and any stored property needs
     to be kept in boxes or heavily wrapped to prevent damage from rainwater and dust.
     The two upper floors and half of the first floor of the warehouse are used for general
     services and facilities maintenance office space. Outside, the back quarter of the lot
     floods during the rainy season and is unusable; this is problematic when the mission
     receives large shipments of goods and, in particular, vehicles, since all government-
     purchased and personally owned vehicles are received at the warehouse for process­
     ing. The one advantage of the warehouse is that it is centrally located for servicing
     the large housing pool in the Herzliya neighborhood while still being close enough to
     the chancery for primary mission support.

     Embassy Tel Aviv attempted to find alternative warehouse space in the greater Tel
     Aviv area but was unable to find a building that was acceptable to all parties involved.
     A number of office buildings in the area around the warehouse could provide accept­
     able office space, however, and allow the embassy to use the entirety of the warehouse
     building for storage. A recommendation to move the general services and facilities
     offices out of the warehouse is included in the classified annex to this report.

     All expendable and nonexpendable property is now tracked through the WebPASS
     program, and requests are received through eServices. During the inspection spot
     check of inventory, one item was missing from the expendables room and four items
     were missing in the nonexpendables storehouse. As GSO was already planning to
     begin the annual physical inventory after the inspection, the OIG team informally
     recommended that the accountable property officer take that opportunity to review
     inventory controls.


     Official Vehicles
     Embassy Tel Aviv maintains a number of motor pools for official vehicles, including
     the GSO motor pool, the regional security office fleet, the USAID motor pool, and a
     number of smaller pools for other agencies in the mission. The workplace and quality
     of life scores, as well as the ICASS scores, show a great satisfaction with the services
     provided to employees and visit coordinators. However, a number of procedural
     weaknesses affect the management of the mission’s vehicle fleet.

     The current mission policy statement on the use of official motor vehicles does
     not meet Department requirements. The mission policy states that it applies “to
     all Department of State-owned vehicles based in Tel Aviv,” while it refers other
     agencies “to their parent agency regulations for the control and operation of their
     USG vehicles.” Pursuant to 14 FAM 432.5, the chief of mission must prescribe


46                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



countrywide policies for the use of all official vehicles that refer to or incorporate the
Motor Vehicle Safety Management Program standards to ensure safe vehicle opera­
tions. These policies must provide for uniform, fair, and equitable treatment of all
post personnel.

The OIG team also found problems with the mission’s policy for the personal use
of official vehicles. The chief of mission’s determinations do not include a written
finding of the circumstances that justify the use of official vehicles, as required by 14
FAM 433.3-1, or that security conditions warrant the use of a home-to-office shuttle.
The policy also does not inform employees of their personal liability and the extent
of liability insurance the post has for self-driving and other authorized use of official
vehicles (14 FAM 433.5).


    RECOMMENDATION 29: Embassy Tel Aviv should revise its mission
    vehicle policy to comply with Department of State requirements. (Action:
    Embassy Tel Aviv)


The mission’s authorization for employees to self-drive vehicles for official business
does not meet the standards for incidental drivers in 14 FAM 432.4 c., in accordance
with the Department’s Overseas Motor Vehicle Safety Management Program. The
mission’s different motor pools also do not keep a record of individuals who are
authorized to self-drive vehicles and therefore cannot exercise oversight over inciden­
tal drivers.


    RECOMMENDATION 30: Embassy Tel Aviv should implement the
    Department of State’s requirements for incidental drivers and create a list of
    individuals authorized to self-drive official vehicles. (Action: Embassy Tel
    Aviv)


The GSO motor pool continues to use the electronic tracking system identified as
a best practice in the 2005 OIG inspection and has developed a process to use the
information with the WebPASS program for trip records. Other record keeping for
Embassy Tel Aviv’s motor vehicles needs improvement. Daily trip records do not
include information about the purpose of a trip, making it impossible to identify
other authorized use of vehicles aside from the home-to-office shuttle. Trip records
for the shuttles and for vehicles used on official visits are not entered into the
WebPASS program. A number of other procedural records are inconsistently main­
tained. The OIG team made informal recommendations concerning the maintenance
of complete vehicle records.


                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   47


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     The separation of the regional security office motor fleet from GSO meets opera­
     tional needs for visitor support but makes accurate record keeping more difficult. The
     regional security office fleet manager does not use daily trip records for most of the
     vehicles but instead relies on fuel records and the corresponding mileage to prepare
     monthly summaries for the GSO motor pool supervisor to include in the monthly
     fleet summary. These records are frequently prepared well after the trips because the
     regional security office motor fleet supervisor doubles as an additional driver when
     the visits load is particularly demanding. Without detailed and timely trip records,
     the motor vehicle accountable officer cannot exercise effective oversight over the
     mission-wide vehicle fleet.


         RECOMMENDATION 31: Embassy Tel Aviv should place the regional
         security office fleet manager under the administrative supervision of the
         general services motor pool manager and retain the authority to task the secu­
         rity fleet vehicles in the regional security office. (Action: Embassy Tel Aviv)



     Procurement
     Procurement requests and purchase orders are generated electronically through
     eServices, and GSO tracks the purchases and contracts through the receiving process.
     However, the procurement unit is unable to close out the orders because it does not
     receive any formal notice of payment from the budget and fiscal office. This issue is
     further discussed in the section dealing with financial management, as that unit is
     responsible for notifying procurement of final payment.

     The procurement unit does not include Federal Acquisition Regulation clause
     52.222-50, Combating Trafficking in Persons, in local service contracts. The
     contracts prepared by the Bureau of Administration/Office of the Procurement
     Executive also are either missing the clause or have not properly included it in the
     contract clauses appendix. During the inspection, a team from OIG’s Middle East
     Regional Office arrived to conduct a review of regional compliance with this require­
     ment, and the OIG team referred the issue to them.


     Shipping
     The shipping office works well, even though it is understaffed. One of the four
     employees in the office is also the sole expeditor for the mission and spends at least
     half of his time supporting official visits. The OIG team supports the request by
     GSO to the ICASS council for an additional position in the shipping unit.




48                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



FACILITIES
Embassy Tel Aviv is housed in an aging chancery and a number of annexes through­
out the greater Tel Aviv region. The chancery suffers from critical structural integrity
issues, including the exterior of the building, which is suffering damage both on
the façade and in the underlying support structures. The plumbing and chiller
systems are out of date and failing and thus require a great deal of funds and labor to
maintain. Although most embassies would be looking for a new site for an improved
facility and colocation, there are a number of legal and political restrictions on the
embassy, which expects to remain in the current facility for the foreseeable future.
However, the embassy cannot stay in the chancery indefinitely without some serious
infrastructure work.


    RECOMMENDATION 32: The Bureau of Overseas Buildings Operations,
    in coordination with Embassy Tel Aviv, should conduct a thorough test of
    the chancery’s structural integrity and primary systems and implement a
    short-term plan to address deficiencies. (Action: OBO, in coordination with
    Embassy Tel Aviv)


A number of offices within the chancery are overcrowded. This appears to be due
to an approach that organizes space within the chancery on a unit level, rather than
by developing a rational plan for organizing the entire building. The nearby USAID
building may also be able to provide nonclassified office space in the near future,
when a number of their employees move to their Jerusalem office. Two weeks after
the inspection team departed from post, a team from OBO conducted a space utiliza­
tion survey of all office space in Embassy Tel Aviv and will follow up with a mission
organization plan.


Facilities Maintenance
The facilities maintenance office manages an impressive number of office and hous­
ing projects for Embassy Tel Aviv. The chiller pipes and sewage plumbing in the
chancery require constant attention, and the facilities manager is slowly replacing
both systems in an attempt to prevent a major failure. OBO has a building façade
project scheduled for 2012 to replace the crumbling exterior of the building. The
consular and financial management offices will be reorganized with new floor plans
soon after the end of the inspection. In housing, the facilities manager is focused on
a long-term plan to upgrade the government-owned houses as they are turned over to
new occupants.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   49


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





     These are all badly needed projects, and the OIG team commends the facilities
     management office for being proactive and finding creative solutions to serious build­
     ing issues. Most of these projects are included in a year-long plan to make the best
     use of available funding. The new guidance for use of routine maintenance and repair
     funding has made this process easier in some ways, but in others it is also difficult
     to determine which projects are allowable and which require OBO approval. The
     facilities manager maintains communication with the post’s area manager during the
     development of new projects but would still benefit from clearer guidance on funding
     allocations.

     The facilities maintenance office stocks a small number of oversized equipment and
     supplies that do not fit in the warehouse but that are not included in the warehouse
     inventory. The financial management office does not maintain a separate inventory
     to track these items. The OIG team made an informal recommendation to correct
     this.


     Safety, Health, and Environmental Management
     The occupational safety and health standing committee met in September 2010 for
     the first time in several years and is in the process of rebuilding the post’s safety and
     health program. The facilities office has already taken on a number of safety projects
     identified by the committee. The post’s office safety and health officer maintains the
     records and conducts regular inspections of the fire equipment in all government-
     controlled properties.

     The embassy does not have an enforcement system in place to ensure that all vehicle
     accidents are reported in a timely manner. The Ambassador’s primary vehicle was
     in an accident more than a month before the inspection and was waiting for repairs.
     Although the regional security office motor pool supervisor had provided some
     initial information to the post’s safety and health officer, there was no formal report
     on file. Department regulation 15 FAM 964.4-2 requires that all motor vehicle
     accident reports must be completed and copies forwarded to the Safety, Health, and
     Environmental Management Division within 30 days of the mishap.


         RECOMMENDATION 33: Embassy Tel Aviv should develop and imple­
         ment procedures so that all vehicle mishap reports are prepared and filed in
         a timely manner with the Safety, Health, and Environmental Management
         office. (Action: Embassy Tel Aviv)




50                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED


The public swimming pool at the embassy recreation center does not meet the stan­
dards required by the Department’s Swimming Pool Safety Standard. For example,
the deck tiles around the pool are not nonslip, which presents a serious hazard, and
the barrier fence surrounding the pool uses a grid pattern that facilitates climbing.


    RECOMMENDATION 34: The Bureau of Overseas Buildings Operations,
    in coordination with Embassy Tel Aviv, should make the necessary repairs
    and improvements to the recreation center pool to meet the Department of
    State’s Swimming Pool Safety Standard. (Action: OBO, in coordination with
    Embassy Tel Aviv)


As mentioned in the consular portion of this report, the ACS unit is overcrowded
and ill-suited for its substantial workload. The unit suffers from a deficit of customer
service windows. Often there are clients waiting to be served and officers or LE staff
available to help them, but no windows are available for interviews. This limits the
number of daily appointments and prolongs the amount of time customers spend
in the cramped waiting area. The OIG team identified a solid glass window that
could be adapted as a teller window. The window looks out of a glass-enclosed officer
cubicle onto a semiprivate hallway that would be ideal for sensitive interviews, but the
corridor also serves as a secondary egress from an adjacent multipurpose room.


    RECOMMENDATION 35: Embassy Tel Aviv, in coordination with the
    Bureau of Overseas Buildings Operations, should assess the impact of having
    a new interview window in the American citizens services unit on egress from
    the multipurpose room and, if the results are acceptable, request authoriza­
    tion from the Bureau of Overseas Buildings Operations to convert the existing
    window to an interview window. (Action: Embassy Tel Aviv, in coordination
    with OBO)




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   51


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     INFORMATION MANAGEMENT AND INFORMATION
     SYSTEMS SECURITY
     Embassy Tel Aviv operates an adequate IM program that meets the information
     processing and communication needs of the mission. Staffing is adequate when all
     positions are filled, but persistent staffing gaps—most of them caused by curtail­
     ments for reasons unrelated to the mission—have reduced the program’s overall effec­
     tiveness. As a result, the program lacked consistent guidance in areas of computer
     security and implementation of the Department’s policies in technology resources
     management.

     A newly arrived information management officer has worked aggressively to provide
     the required policies and standards for all IM operations and has looked for collab­
     orative solutions to operational problems. The IM program consists of two major
     operational components. The Information Systems Center handles unclassified infor­
     mation processing services and is led by a newly arrived information systems officer
     who is dealing with a unit that has lacked consistent operational guidance
                                                    discussed in the classified annex of this
     report. The Information Program Center manages the mission’s classified informa­
     tion processing system, mail and pouch service, and radio and telephone programs.
     The Information Program Center is well run by an information program officer who
     has been at post for over a year.

     The OIG team identified several areas that need immediate attention to ensure effi­
     cient IM operations. These include management of the embassy’s Dedicated Internet
     Network (DIN) system, mail screening procedures for off-site facilities, backup
     media handling, information technology contingency plan testing, telephone frame
     installation standards, and configuration change. Information security issues are
     covered in the classified annex of this report. The OIG team also counseled IM staff
     on issues such as media labeling, maintenance log management, computer resources
     access control management, and emergency communication equipment inventory.
     The mission addressed some of these issues during the inspection to the satisfaction
     of the OIG team. Others are covered in specific recommendations in this section of
     the report and in the classified annex.

     The OIG team used Department IM guidelines, Federal information management
     mandates, and common industry practices in its analysis. The team used information
     technology tools to evaluate the cyber-security posture of the embassy and conducted
     manual processes and physical walkthroughs to evaluate overall practices.




52                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



Dedicated Internet Network Management
Embassy Tel Aviv has at least 10 DINs. The embassy does not know the exact
number. There are no standard operating procedures for maintaining the networks
or clear justifications for establishing so many. Only a few are registered with the
Department’s Information Technology Configuration Change Control Board, and
some of the data provided to the board are inaccurate. To establish a DIN, post
much show a clear need that cannot be met by the unclassified network. A justifica­
tion and network information must be submitted to the Department’s Information
Technology Configuration Change Control Board for approval. If not appropriately
managed and justified, DINs divert IM resources from managing the Department’s
major network. Lack of appropriate management also exposes government-owned
computers to malicious hackers. The embassy recognizes the deficiency in its DIN
management and has started to inventory and consolidate the networks and to imple­
ment appropriate controls to secure them as outlined in 5 FAM 872.


   RECOMMENDATION 36:  Embassy Tel Aviv should complete the inven­
   tory and consolidation of its Dedicated Internet Networks and register them
   with the Bureau of Information Resource Management. (Action: Embassy Tel
   Aviv)      




   RECOMMENDATION 37:  Embassy Tel Aviv should establish and docu­
   ment standard operating procedures for Dedicated Internet Network manage­
   ment. (Action: Embassy Tel Aviv)      



Local Change Control Board
The embassy has established a local Change Control Board, as required by 5 FAM
862 and 5 FAM 864. However, the board has not been diligent in reviewing, approv­
ing, and documenting the hardware and software installed and operated locally. The
OIG team’s network scanning results showed unapproved hardware connected to the
network. Although the embassy had initiated the approval process for the hardware,
no records on the final decision were available. The local Change Control Board is
also not involved in reviewing and approving local application development efforts.
As a result, the developer performs development work independent of the board
and management oversight. Unapproved software and hardware affect the integrity,
confidentiality, and availability of a network. A functioning, active local Change




                 OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   53


              SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED


     Control Board provides the framework for the identification, control, and accounting
     of all information technology assets operated on the local network.


        RECOMMENDATION 38: Embassy Tel Aviv should formulate and insti­
        tute standard operating procedures for the local Change Control Board.
        (Action: Embassy Tel Aviv)



     Backup Media Handling

     LE staff transport unclassified network backup tapes from the annex buildings and
     the American Center Jerusalem to the embassy for off-site storage on a weekly basis.
     This arrangement creates the potential for media mishandling. Department regula­
     tion 12 FAM 622.1-7 b. (2) states that all unclassified media must be handled by
     cleared U.S. citizens when being transported between posts.


        RECOMMENDATION 39: Embassy Tel Aviv should modify its backup
        media handling procedures so that unclassified media are handled only by
        cleared U.S. citizens when being transported between posts. (Action: Embassy
        Tel Aviv)



     Information Technology Contingency Planning
     Embassy Tel Aviv has completed information technology contingency plans for its
     unclassified and classified networks, (b)(2)(b)(5)




     The embassy has an adequate alternate command center for emergency operations.
     Should the chancery become unavailable, the GSO warehouse is designated as the
     alternate work site. The warehouse has an unclassified server room and office spaces
     for GSO staff. (b)(2)(b)(5)




54                    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                   SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


(b)(2)(b)(5)




Telephone Frame Installation Standards
The embassy telephone frame room contains a Diplomatic Telecommunications
Service Programs Office switch box that appears to be the end product of a rushed
installation. The wiring is sloppy and does not run through punch-out holes in the
sides of the box, and connections are not labeled per guidance found in 5 FAH-9
H-100, H-200, and H-300. This situation creates a difficult troubleshooting envi-
ronment for IM staff tasked with maintaining and servicing circuits and channels
connected through the switch box.


    RECOMMENDATION 40: Embassy Tel Aviv, in coordination with the
    Diplomatic Telecommunications Systems Programs Office, should rewire
    and label its switch box to comply with industry wiring standards. (Action:
    Embassy Tel Aviv, in coordination with DTS-PO)



Mail Screening Procedures
Mail screening procedures at the chancery are in place and are adequate. Counter to
14 FAH-4 H-121.1 a. guidance, however, local mail addressed to the embassy ware-
house and public affairs office off-site locations is delivered directly to those facilities
and is not screened beyond visual inspection at those sites. This leaves both locations
vulnerable to white powder incidents that might otherwise be mitigated through
screening and handling procedures at the chancery.


    RECOMMENDATION 41: Embassy Tel Aviv should take immediate steps
    to stop delivery of mail and packages directly to its public affairs, warehouse,
    and other off-site locations and request Israeli postal authorities and commer-
    cial courier and delivery services to deliver packages only to the embassy
    address, where adequate screening procedures and facilities are in place.
    (Action: Embassy Tel Aviv)




                   OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   55


                SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     Telephone Operations
     The Nortel Option 11C telephone switches at the public affairs office and warehouse
     lack Nortel OTM (Optivity Telephony Manager) software upgrades. Upgrading
     both switches with OTM software will provide automated programming through a
     graphic interface versus the current manual interface. Upgrading will also simplify
     programming functions, especially when the resident telephone technician is absent
     from post. Department regulation 5 FAH-2 H-623.3 states that such upgrades are
     not centrally funded but are funded by individual posts.


        RECOMMENDATION 42: Embassy Tel Aviv should procure Optivity
        Telephony Manager software for its two off-site Nortel Option 11C switches.
        (Action: Embassy Tel Aviv)




56                    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                   SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



QUALITY OF LIFE

COMMUNITY LIAISON OFFICE
Embassy Tel Aviv employs three part-time EFMs as community liaison office coordi­
nator and assistants. The office has an active program, but OIG questionnaire results
indicated significant dissatisfaction with the sponsorship and orientation programs
for newcomers. The inspection found that many officers feel too busy with regular
duties or as control officers for visitors to serve as sponsors. The community liaison
office (CLO) hours are inconsistent and not properly posted.

Some dissatisfaction may reflect the disbanding of the embassy employees associa­
tion, which was put into trusteeship in February 2008 due to financial mismanage­
ment and formally expired in May 2010. The CLO must now do its own fundraising
to help pay for events such as holiday parties without assistance from an employees
association.

The OIG team informally recommended that the embassy do the following:

   • 	 improve its sponsorship and orientation program, making clear to busy
       managers that sponsorship is an important function; 

   • 	 survey the community to determine needs;

   • 	 post the hours that the CLO is open for service;

   • 	 form an advisory board to assist the CLO;

   • 	 work with the CLO to improve responsiveness and organizational skills; and

   • 	 institute an appropriate system for keeping, managing, and accounting for
       CLO funds from community activities.




                 OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   57


              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


     HEALTH UNIT
     The health unit garnered higher than average scores across the board on the ICASS
     customer satisfaction survey and OIG questionnaire. It is staffed with highly profes-
     sional LE staff members who operate in a recently refurbished office suite that
     includes two examination rooms, a pharmacy room, and office space. Clinic hours
     and the local physician referral system are adequate. In the vast majority of cases,
     local physicians provide bills in English, which obviates the need for translations for
     insurance claims.




     EQUAL EMPLOYMENT OPPORTUNITY AND
     FEDERAL WOMEN’S PROGRAM
     The embassy has two EEO counselors. Both are proactive and systematic in
     approaching their responsibilities. They have identified and trained as EEO liaisons
     10 LE staff members who represent a good cross section of the embassy LE commu-
     nity. One of the counselors works in the executive office. In an embassy as large
     as Tel Aviv and with several annexes, it is important that the EEO counselors be
     accessible to all employees. Conscientious as an EEO counselor might be, employees
     may be reluctant to approach a counselor who is assigned to the executive office. The
     OIG team made an informal recommendation that future EEO counselors should be
     selected from areas not associated with the executive office.

     Tel Aviv’s Federal Women’s Program is unusually active. The coordinator is the
     information management officer, assisted by a consular ELO. During the inspection,
     the Federal Women’s Program and the ELO association cohosted a panel discussion
     that drew on the professional experience of embassy women and included voluntary
     mentor-mentee pairing.




     SCHOOLS
     (b)(2)(b)(5)(b)(6)
               is the school in Israel assisted by the Department’s Office of Overseas
     Schools. An independent, community-operated school, it offers a secular U.S. curric-
                                                                                   (b)(2)(b)(5)(b)(6)
     ulum from kindergarten through grade 12 for 516 students, 74 of whom are
                                                                                  (b)(2)(b)(5)(b)(6)
                                     Issues regarding the                                              building facility are
     discussed in the housing section of this report.



58                         OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


                                                                                      (b)(2)(b)(5)(b)(6)
A representative of the Office of Overseas Schools visited                 in September
                    (b)(2)(b)(5)(b)(6)
2010 and met with                      administration, embassy managers, interested embassy
parents, and the school board. Her report noted general embassy community satisfac-
tion with the school administration, facilities, and curriculum. OIG questionnaire
results from embassy American employees support this view. Some employees pointed
out that the school does not have the capability to address the needs of children with
                                           (b)(2)(b)(5)(b)(6)

moderate to severe disabilities.             can accommodate mildly to moderately disabled
students and considers each case according to the school’s ability to meet the child’s
particular needs.
(b)(2)(b)(5)(b)(6)

     has its own security force. In collaboration with the school authorities, the
regional security office has identified areas where security coordination could be
enhanced. The embassy is providing funding for this purpose from the Soft Target
Overseas Schools Security Program to improve the school’s physical security and            (b)(2)(b)(5)(b)(6)

communications to protect U.S. mission children attending           Specific steps are
discussed in the classified annex to this report.

 




                      OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011         59


                     SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





60    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




MANAGEMENT CONTROLS


Management Section
Management controls in the management section are generally sufficient. However,
the OIG inspectors identified areas for improvement and incorporated recommenda­
tions into the narratives for each functional unit. The deficiencies in the supply chain
management system, in particular, require some attention, as they exist in the seams
between operating units (for example, financial management, procurement, and
property management) and therefore require a level of collaboration and cooperation
that is more difficult to achieve. Nonetheless, the recommendations should serve to
reduce, if not eliminate, the risk that now exists in the supply chain system.


Accountable Consular Officer
At the onset of the inspection, the ACS chief was also the accountable consular
officer (ACO) for fees. Given the heavy ACS workload and the fact that fees are
reconciled toward the end of the work day, when urgent ACS cases seem to reach
critical decision points, the ACO responsibility was not getting all the attention it
needed. The Tel Aviv ACO reconciles MRV fee collections for both Tel Aviv and
Jerusalem. Because Israelis pay their MRV fees at the Israeli post office and residents
of the West Bank and Gaza have to pay their MRV fees to a bank that operates in
those territories, MRV reconciliation is doubly complicated.

During the inspection, consular management identified a newly arrived, tenured,
second-tour consular officer to take over the ACO role. The OIG team concurred
with this switch of ACO responsibilities. The new ACO signed up for the required
online ACO training, identified the latest version of the MRV reconciliation spread­
sheet, and prepared to assume responsibility first for MRV accountability and then
for the entire ACO portfolio.

In the recent past, accountability for NIV foils had rotated among ELOs, contrary
to guidance in 7 FAH-1 H-653.2. To address this, the new ACO is also taking over
accountability for NIV controlled items. The ACS chief will retain accountability for
the ACS controlled items.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   61


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Cashiering

     There are three rotating consular cashiers who also work as passport assistants. They
     are all well trained and competent. The Class B cashier, however, had not been
     counting the consular cash and preparing an OF-158 before the consular cashier
     left the Class B deposit window, as required by 7 FAH-1 H-771.2-5 f. The Class
     B cashier had, however, been preparing the ACO’s copy of the OF-158 in a timely
     fashion. This situation was rectified during the inspection.


     Referrals
     Even when NIV appointments are readily available, there is a steady demand for the
     perceived cachet that a referral confers. The consular section had conducted a valida­
     tion study of its referrals as required by 9 FAM Appendix K, 105 d., and travelers
     had used their visas correctly. However, seven ELOs adjudicated referrals during the
     6 months prior to the inspection, even on occasions when either the NIV chief or
     the consul general was in the office. This is contrary to 9 FAM Appendix K, 202 a.,
     which specifically states that “Class B referrals must be adjudicated by a tenured mid-
     level supervisory consular officer or the consular chief of section, or someone acting
     officially in one of those capacities.”


        RECOMMENDATION 43: Embassy Tel Aviv should require either the
        nonimmigrant unit chief or the consul general to adjudicate all Class A and B
        referrals in the absence or unavailability of one or the other. (Action: Embassy
        Tel Aviv)




62                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




RECOMMENDATIONS


RECOMMENDATION 1: Embassy Tel Aviv should establish a common access
terminal room with a sufficient number of classified terminals to support the needs
of all sections. (Action: Embassy Tel Aviv)


RECOMMENDATION 2: Embassy Tel Aviv should develop and implement a plan
to provide entry-level officers with mentor pairings and well-defined opportunities to
support official visits, speak in public fora, produce written reports, and participate in
representational events. (Action: Embassy Tel Aviv)


RECOMMENDATION 3: Embassy Tel Aviv should revise the work requirements
statement of its political counselor to de-emphasize reporting and emphasize respon­
sibility for management, mentoring, and providing a positive work environment.
(Action: Embassy Tel Aviv)


RECOMMENDATION 4: The Bureau of Democracy, Human Rights, and Labor,
in coordination with the Office of the Legal Adviser and the Bureau of Near Eastern
Affairs, should provide Embassy Tel Aviv with updated guidance on vetting Israeli
military personnel under the Leahy Amendment. (Action: DRL, in coordination
with L and NEA)


RECOMMENDATION 5: The Bureau of Economic, Business, and Energy Affairs,
in coordination with Embassy Tel Aviv, should work with the Department of the
Treasury to prepare a plan for bringing the Israel loan guarantee program to an
orderly conclusion as envisioned in the original legislation and for redirecting the
program’s Joint Economic Development Group to other purposes. (Action: EEB, in
coordination with Embassy Tel Aviv)


RECOMMENDATION 6: Embassy Tel Aviv should devise an appropriate struc­
ture to manage its Conflict Management and Mitigation program’s financial and
program oversight, seeking administrative and financial expertise from the U.S.
Agency for International Development where appropriate and limiting the growth of
the program to a level it can oversee effectively. (Action: Embassy Tel Aviv)




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   63


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     RECOMMENDATION 7: The Bureau of Educational and Cultural Affairs, in
     coordination with the Office of the Legal Adviser, should decide on a strategy to
     obtain legal status for the United States-Israeli Educational Foundation under Israeli
     law and instruct Embassy Tel Aviv to carry it out. (Action: ECA, in coordination
     with L)


     RECOMMENDATION 8: Embassy Tel Aviv should incorporate specific manage­
     ment milestones into the nonimmigrant visa chief’s work requirements statement that
     address the minimum amount of time per week that the chief should spend working
     on the floor of the nonimmigrant section, including interviewing applicants. (Action:
     Embassy Tel Aviv)


     RECOMMENDATION 9:  Embassy Tel Aviv should establish and adhere to a
     schedule for the periodic counseling of nonimmigrant visa entry-level officers and
     require sufficient documentation so that each officer receives thorough, individual
     feedback. (Action:  Embassy Tel Aviv)


     RECOMMENDATION 10: The Bureau of Consular Affairs should establish an
     additional mid-level position in the Tel Aviv consular section to serve as a half-time
     fraud prevention manager and a half-time American citizens services officer. (Action:
     CA)


     RECOMMENDATION 11: Embassy Tel Aviv should submit to the Bureau of
     Consular Affairs a request and justification for upgrading the American citizens
     services chief position to the FS-02 grade level. (Action: Embassy Tel Aviv)


     RECOMMENDATION 12: Embassy Tel Aviv should examine its criteria for
     adjudicating visas for former Israeli military conscripts and codify procedures after
     conducting targeted validation studies of this demographic. (Action: Embassy Tel
     Aviv)


     RECOMMENDATION 13: Embassy Tel Aviv, in coordination with the Bureau
     of Near Eastern Affairs, should reassign its management officer position (Position
     Number 50129001) to serve primarily as director of its visitor support unit. (Action:
     Embassy Tel Aviv, in coordination with NEA)


     RECOMMENDATION 14: Embassy Tel Aviv should define its processes, analyze
     personnel functions and roles, devise a system, and reallocate resources as necessary
     to provide effective visitor support while minimizing distractions to political and


64                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



economic control officers and allowing participation by first- and second-tour officers
to enhance their experience level. (Action: Embassy Tel Aviv)


RECOMMENDATION 15: Embassy Tel Aviv should conduct a comprehensive
cost-benefit analysis, including mission objectives, operational effect, lost produc­
tivity, overtime costs, and impact on morale, upon which to base a decision on the
workweek observed by the embassy. (Action: Embassy Tel Aviv)


RECOMMENDATION 16: Embassy Tel Aviv should develop and implement a
plan that requires regularly scheduled meetings between management and the locally
employed staff committee as a means to improve communication within the organi­
zation on issues of mutual concern. (Action: Embassy Tel Aviv)


RECOMMENDATION 17: Embassy Tel Aviv should develop and implement a
consolidation plan that addresses each of the 13 administrative support services as
prescribed and agreed upon by the State/U.S. Agency for International Development
Joint Management Council in Department telegrams 09 State 087452 and 09 State
123469. (Action: Embassy Tel Aviv)


RECOMMENDATION 18: The Bureau of Human Resources should reconcile the
requirement to use Form JF-50 to evaluate locally employed staff employees, found in
Department regulations and in its Locally Employed Staff Performance Management
Policy Guidebook, with the exemptions granted to the Bureaus of Near Eastern and
South and Central Asian Affairs. (Action: DGHR)


RECOMMENDATION 19: Embassy Tel Aviv should revise the position descrip­
tion of senior guard Position Number A56-270 to reflect its duties accurately and
reclassify and regrade the position, if appropriate. (Action: Embassy Tel Aviv)


RECOMMENDATION 20: Embassy Tel Aviv should make its financial manage­
ment office the post’s designated billing office. (Action: Embassy Tel Aviv)


RECOMMENDATION 21: Embassy Tel Aviv should give its financial manage­
ment office access to receiving reports in the Web Post Administrative Software Suite
procurement application. (Action: Embassy Tel Aviv)




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   65


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     RECOMMENDATION 22: Embassy Tel Aviv should develop and implement a
     system by which its financial management office advises its procurement section of
     final payment of invoices to facilitate closeout of purchase orders. (Action: Embassy
     Tel Aviv)


     RECOMMENDATION 23: Embassy Tel Aviv should determine whether to
     provide accommodation exchange based on the guidance provided in the Foreign
     Affairs Handbook. (Action: Embassy Tel Aviv)


     RECOMMENDATION 24: Embassy Tel Aviv should produce and maintain docu­
     mentation of International Cooperative Administrative Support Services council and
     budget committee meetings in accordance with Department regulations. (Action:
     Embassy Tel Aviv)


     RECOMMENDATION 25: The Bureau of Overseas Buildings Operations, in
     coordination with Embassy Tel Aviv, should remove the communications equipment
     from the house on 20 Hazorea Street, formerly occupied by the Foreign Broadcast
     Information Service, and renovate the property to bring it back to residence stan­
     dards. (Action: OBO, in coordination with Embassy Tel Aviv)


     RECOMMENDATION 26: The Bureau of Overseas Buildings Operations, in
     coordination with Embassy Tel Aviv and the Office of the Legal Adviser, should
     review the memorandum of understanding (b)(2)(b)(5)(b)(6)
                            and related files to determine whether continued leasing of the
     residence is appropriate, whether terms of the memorandum of understanding are
     sufficient, and, if appropriated funds were used for upgrading the property, whether
     this was proper procedure. (Action: OBO, in coordination with Embassy Tel Aviv
     and L)


     RECOMMENDATION 27: The Bureau of Overseas Buildings Operations, in coor­
     dination with Embassy Tel Aviv, should conduct a real property utilization survey
     and prepare a plan to develop or sell any underutilized property. (Action: OBO, in
     coordination with Embassy Tel Aviv)


     RECOMMENDATION 28: Embassy Tel Aviv should develop a post policy on
     living quarters allowance approvals to include in the post housing handbook and the
     interagency housing board guidebook. (Action: Embassy Tel Aviv)




66                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



RECOMMENDATION 29: Embassy Tel Aviv should revise its mission vehicle
policy to comply with Department of State requirements. (Action: Embassy Tel Aviv)


RECOMMENDATION 30: Embassy Tel Aviv should implement the Department
of State’s requirements for incidental drivers and create a list of individuals authorized
to self-drive official vehicles. (Action: Embassy Tel Aviv)


RECOMMENDATION 31: Embassy Tel Aviv should place the regional security
office fleet manager under the administrative supervision of the general services
motor pool manager and retain the authority to task the security fleet vehicles in the
regional security office. (Action: Embassy Tel Aviv)


RECOMMENDATION 32: The Bureau of Overseas Buildings Operations, in coor­
dination with Embassy Tel Aviv, should conduct a thorough test of the chancery’s
structural integrity and primary systems and implement a short-term plan to address
deficiencies. (Action: OBO, in coordination with Embassy Tel Aviv)


RECOMMENDATION 33: Embassy Tel Aviv should develop and implement
procedures so that all vehicle mishap reports are prepared and filed in a timely
manner with the Safety, Health, and Environmental Management office. (Action:
Embassy Tel Aviv)


RECOMMENDATION 34: The Bureau of Overseas Buildings Operations, in
coordination with Embassy Tel Aviv, should make the necessary repairs and improve­
ments to the recreation center pool to meet the Department of State’s Swimming
Pool Safety Standard. (Action: OBO, in coordination with Embassy Tel Aviv)


RECOMMENDATION 35: Embassy Tel Aviv, in coordination with the Bureau of
Overseas Buildings Operations, should assess the impact of having a new interview
window in the American citizens services unit on egress from the multipurpose room
and, if the results are acceptable, request authorization from the Bureau of Overseas
Buildings Operations to convert the existing window to an interview window.
(Action: Embassy Tel Aviv, in coordination with OBO)


RECOMMENDATION 36:  Embassy Tel Aviv should complete the inventory and
consolidation of its Dedicated Internet Networks and register them with the Bureau
of Information Resource Management. (Action: Embassy Tel Aviv)      




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   67


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     RECOMMENDATION 37:  Embassy Tel Aviv should establish and document stan­
     dard operating procedures for Dedicated Internet Network management. (Action:
     Embassy Tel Aviv)      


     RECOMMENDATION 38: Embassy Tel Aviv should formulate and institute stan­
     dard operating procedures for the local Change Control Board. (Action: Embassy Tel
     Aviv)


     RECOMMENDATION 39: Embassy Tel Aviv should modify its backup media
     handling procedures so that unclassified media are handled only by cleared U.S. citi­
     zens when being transported between posts. (Action: Embassy Tel Aviv)


     RECOMMENDATION 40: Embassy Tel Aviv, in coordination with the
     Diplomatic Telecommunications Systems Programs Office, should rewire and label
     its switch box to comply with industry wiring standards. (Action: Embassy Tel Aviv,
     in coordination with DTS-PO)


     RECOMMENDATION 41: Embassy Tel Aviv should take immediate steps to
     stop delivery of mail and packages directly to its public affairs, warehouse, and other
     off-site locations and request Israeli postal authorities and commercial courier and
     delivery services to deliver packages only to the embassy address, where adequate
     screening procedures and facilities are in place. (Action: Embassy Tel Aviv)


     RECOMMENDATION 42: Embassy Tel Aviv should procure Optivity Telephony
     Manager software for its two off-site Nortel Option 11C switches. (Action: Embassy
     Tel Aviv)


     RECOMMENDATION 43: Embassy Tel Aviv should require either the nonimmi­
     grant unit chief or the consul general to adjudicate all Class A and B referrals in the
     absence or unavailability of one or the other. (Action: Embassy Tel Aviv)




68                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED




INFORMAL RECOMMENDATIONS


Informal recommendations cover operational matters not requiring action by organi­
zations outside the inspected unit and/or the parent regional bureau. Informal recom­
mendations will not be subject to the OIG compliance process. However, any subse­
quent OIG inspection or on-site compliance review will assess the mission’s progress
in implementing the informal recommendations.

Political Affairs
The political section is organized along traditional lines, but Washington consumers
say they want reporting that integrates a wider range of information and perspectives.

Informal Recommendation 1: Embassy Tel Aviv should replace the system of indi­
vidual portfolios in its political section with a system of reporting teams.

Washington consumers who want more reporting do not give the embassy sufficient
guidance on exactly what they want.

Informal Recommendation 2: Embassy Tel Aviv should ask key customers, includ­
ing the Office of the Special Envoy for Mideast Peace, what reporting topics are most
useful.

Many political officers are overburdened while the section’s second office manage­
ment specialist position is badly underutilized.

Informal Recommendation 3: Embassy Tel Aviv should shift administrative aspects
of its Leahy vetting process from an officer to an office management specialist.

Demands for spot reporting leave too little time for adequate preparation of annual
reports required by Congress.

Informal Recommendation 4: Embassy Tel Aviv should shift responsibility for
preparing portions of the annual human rights and trafficking in persons reports
from overburdened officers to underutilized locally employed staff.

Control officer duties are generating large amounts of unpaid overtime and keeping
political officers from needed advocacy and reporting duties.




                 OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   69


              SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Informal Recommendation 5: Embassy Tel Aviv should shift responsibility for some
     administrative aspects of control officer duties from political officers to the political
     section’s second office management specialist.


     Economic Affairs
     A heavy emphasis on spot reporting keeps up with demand but risks obscuring larger
     trends in a flood of daily detail.

     Informal Recommendation 6: Embassy Tel Aviv should help its Washington
     consumers keep track of important larger trends by making greater use of quarterly
     or other summary reports.

     Despite—or perhaps because of—the fact that cooperation among all agencies on
     terrorist financing issues is collegial and close, the embassy has stopped holding regu­
     lar meetings of its law enforcement working group to coordinate this work.

     Informal Recommendation 7: Embassy Tel Aviv should resume holding regularly
     scheduled meetings of its law enforcement working group, chaired where appropriate
     by the deputy chief of mission.


     Public Affairs
     The ACAO, designated as an ELO position, has been given a portfolio with more
     responsibilities than one officer can be expected to carry out efficiently. Although the
     ACAO works with several LE staff members, she does not supervise any of them, and
     therefore has no opportunity to build supervisory skills.

     Informal Recommendation 8: Embassy Tel Aviv should divide the assistant cultural
     affairs officer’s portfolio into a more appropriate and manageable package that
     includes supervision of locally employed staff.

     The work requirements for the AIO position, also designated for an ELO, do not
     include enough responsibilities to help her gain the experience needed to advance to
     higher levels.

     Informal Recommendation 9: Embassy Tel Aviv should devise a more substantial
     program of work requirements for the assistant information officer that includes
     supervision of locally employed staff.

     The position descriptions for the PAS American and LE staff have not been updated
     in several years. Many of the duties have changed.




70                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 10: Embassy Tel Aviv should instruct the public affairs
officer to review all public affairs section position descriptions for American and
locally employed staff so that responsibilities are clearly delineated and grades are
appropriate.

Much of the Israeli public is suspicious of U.S. efforts to promote negotiations aimed
at establishing an independent Palestinian state. The lively and fractious press often
misinterprets American policies.

Informal Recommendation 11: Embassy Tel Aviv should use the new structure
in the public diplomacy section to increase communication about U.S. policies and
values and to rebuild contacts with opinion leaders and influential think tanks.


Consular Operations
In the NIV waiting room, three lines of standing applicants comingle while their
documents are checked and ordered at a greeter station, they have their finger-
prints captured and verified, and they wait for interviews, often for 2 or more
hours during peak periods. Management does not adjust the ratio of its LE and
officer staff at the interview windows efficiently to cope with the pressure on its
waiting room.

Informal Recommendation 12: Embassy Tel Aviv should stop using an eligible
family member to verify fingerprints in order to recover that window for additional
officer interviewing.

Informal Recommendation 13: Embassy Tel Aviv should order sufficient single
print equipment for each officer’s interviewing window and for the two swing
windows.

Informal Recommendation 14: Embassy Tel Aviv should identify trip wires to
convert intake windows to interview windows and reduce the backlog of applicants
waiting for officer interviews.

The Haifa consular agency operates out of the agent’s private law office, and the
Department reimburses the agent for a fixed percentage of his operating costs,
including the time of an administrative assistant. The agent’s administrative assistant
cannot participate in the embassy’s awards program because she is not a direct-hire
employee, but she does an excellent job.

Informal Recommendation 15: Embassy Tel Aviv should provide occasional
certificates of appreciation for the work of the Haifa consular agent’s administrative
assistant.



                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   71


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     The Haifa consular agent does not always submit essential documentation in support
     of consular reports of birth. The Tel Aviv ACS unit then follows up and requests
     additional evidence directly from the client but does not inform the consular agent
     that the case was incomplete.

     Informal Recommendation 16: Embassy Tel Aviv should provide immediate feed­
     back to the Haifa consular agent when consular reports of birth cases require follow-
     up due to insufficient documentation.

     NIV officers are not consistent in the applications that they submit for administrative
     processing.

     Informal Recommendation 17: Embassy Tel Aviv should organize a digital video-
     conference with appropriate staff in the Bureau of Consular Affairs to discuss
     MANTIS processing, and all consular officers, including supervisors, should
     participate.

     NIV staffing includes three EFM positions. Two EFMs verify fingerprints; however,
     it would be more efficient if the interviewing officers did that at the time of inter­
     view. Another EFM prepares security advisory opinion submissions and is often
     backlogged, and the federal benefits unit requires regular assistance with its routine
     tasks.

     Informal Recommendation 18: Embassy Tel Aviv should rewrite two of its eligible
     family member position descriptions to include security advisory preparation and
     assistance to the federal benefits unit.

     The NIV unit, including the correspondence subunit, is retaining too many old
     documents. File cabinets are occupying too much space in an already overcrowded
     section.

     Informal Recommendation 19: Embassy Tel Aviv should destroy old chronological
     files, eliminate several file cabinets of miscellaneous information being retained in
     the visa processing area, and consolidate the E visa company files.

     Consular management has not given priority to validation studies that would
     confirm the reliability of certain classes of travelers or identify other vulnerable
     groups.

     Informal Recommendation 20: Embassy Tel Aviv should validate the travel of select
     groups of nonimmigrant visa applicants, particularly those that are issued routinely,
     and share those results with Consulate General Jerusalem so that the two consular
     sections adjudicate the same demographic consistently.




72                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Management
General
Embassy Tel Aviv has not focused attention on process mapping or standard oper­
ating procedures, which are key components of the Department’s Collaborative
Management Initiative. Increased work in these areas would improve operations and
help in the development of a quality management system.

Informal Recommendation 21: Embassy Tel Aviv should develop process maps and
standard operating procedures in accordance with the Department’s Collaborative
Management Initiative.


Housing and Real Estate
Embassy Tel Aviv’s housing includes two homes leased on living quarters allow­
ance. These two residences are not included in the real property application data as
required by 15 FAM 141.1.

Informal Recommendation 22: Embassy Tel Aviv should include all information on
living quarters allowance in the real property application.

The official residence staff for the chief of mission residence is currently using the
outdoor area where the old chiller was removed as storage space, but the area is not
designed for regular use and presents a safety hazard to the staff.

Informal Recommendation 23: Embassy Tel Aviv should not allow the official resi­
dence staff to store equipment in the former chiller area until the area is made safe.

Expendable and Nonexpendable Property Management
During the inspection team’s spot-check of the inventory, one printer cartridge and
four television sets were missing from the warehouse stock.

Informal Recommendation 24: Embassy Tel Aviv should review the expendable and
nonexpendable inventory controls during the annual physical inventory.

Official Vehicles
Daily trip records do not include information about the purpose of a trip, making it
impossible to identify other authorized use of vehicles aside from the home-to-office
shuttle. Trip records for the shuttles and for vehicles used on official visits are not
entered into the WebPASS program.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   73


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Informal Recommendation 25: Embassy Tel Aviv should modify procedures for
     using official vehicles so that complete information for daily trips is entered into the
     official records.

     General services motor pool drivers are not consistently completing the daily vehicle
     checklists.

     Informal Recommendation 26: Embassy Tel Aviv should modify procedures for
     using official vehicles so that the vehicle checklists are completed on a daily basis.

     The Ambassador’s primary vehicle is not correctly entered into the Integrated
     Logistics Management Systems inventory, and the GSO motor pool supervisor does
     not have the permissions to correct the information.

     Informal Recommendation 27: Embassy Tel Aviv should submit a corrections
     report for the Integrated Logistics Management Systems inventory.

     Facilities Maintenance
     The facilities maintenance office stocks a small number of oversized equipment and
     supplies that do not fit in the warehouse, but they are not included in the warehouse
     inventory. The financial management office does not maintain a separate inventory
     to track these items.

     Informal Recommendation 28: Embassy Tel Aviv should include all facilities equip­
     ment and supplies in an inventory tracking system.

     Information Management
     Embassy Tel Aviv has completed information technology contingency plans for the
     unclassified and classified networks, but the plans have not been tested for consis­
     tency and viability.

     Informal Recommendation 29: Embassy Tel Aviv should test the contingency plans
     for its unclassified and classified networks and develop a process for periodic testing
     as systems environments and resources change.




74                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Quality of Life
The embassy has two EEO counselors who are proactive and systematic in approach­
ing their responsibilities. However, one is assigned to the executive office, which may
make some employees reluctant to approach that individual.

Informal Recommendation 30: Embassy Tel Aviv should select future Equal
Employment Opportunity counselors from areas not associated with the executive
office so that they are accessible to all employees.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   75


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





76    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




PRINCIPAL OFFICIALS


Title                                                           Name                                  Arrival Date

Ambassador                                                      James Cunningham                          08/2008
Deputy Chief of Mission                                         Thomas Goldberger                         07/2010

Chiefs of Sections:
Management                                                      Robert Davis                              08/2010
Consular                                                        Andrew Parker                             08/2008
Political                                                       Robert Silverman                          08/2010
Economic                                                        David Burnett                             07/2008
Political Research                                              Steven Slick                              08/2009
Public Affairs                                                  Hilary Olsin-Windecker                    10/2010
Regional Security                                               Daniel Power                              08/2008

Other Agencies:
Department of Commerce                                          Jonathan Heimer                           08/2009
Defense Attaché Office                                          COL Richard Burgess                       06/2009
Department of Homeland Security                                 Richard Jolles                            09/2010
Open Source Center                                              Carol Van der Voort                       07/2009
Agency for International Development                            Michael Harvey                            08/2010
Department of Justice                                           Jeffrey Walker                            07/2008




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011                  77


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





78    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


     SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




ABBREVIATIONS


ACO                  accountable consular officer
ACS                  American citizens services
ACAO                 assistant cultural affairs officer
AIO                  assistant information officer
AISI                 Walworth Barbour American International School in
                     Israel
ARSO-I               assistant regional security officer – investigations
CA                   Bureau of Consular Affairs
CEAC                 Consular Electronic Application Center
CLO                  community liaison office
CMM                  Conflict Management and Mitigation Program
DCM                  deputy chief of mission
DIN                  dedicated Internet network
EEO                  Equal Employment Opportunity
EFM                  eligible family member
ELO                  entry-level officer
FAH                  Foreign Affairs Handbook
FAM                  Foreign Affairs Manual
FPM                  fraud prevention manager
GSO                  general services office
ICASS                International Cooperative Administrative Support
                     Services
IM                   information management
LE                   locally employed
MEPI                 Middle East Partnership Initiative
MRV                  machine readable visa
MSRP                 Mission Strategic Resource Plan
NIV                  nonimmigrant visa
OBO                  Bureau of Overseas Buildings Operations
OIG                  Office of Inspector General
PAO                  public affairs officer
PAS                  public affairs section


          OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   79


         SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED


     SEMEP                  Special Envoy for Middle Eastern Peace
     USAID                  United States Agency for International Development
     USIEF                  United States-Israel Educational Foundation
     USSC                   United States Security Coordinator
     WebPASS                Web Post Administrative Software Suite




80              OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


               SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




APPENDIX: JOINT ISSUES


The recommendations in this appendix reflect those findings in the 2010 OIG
inspections of Embassy Tel Aviv and Consulate General Jerusalem that require joint
action by both missions to resolve. The findings appear in identical form in both
reports. The recommendations are an integral—indeed, a vital—part of both inspec­
tions, but for greater clarity in the compliance process, they are also being issued as a
separate OIG report, Joint Issues in the Inspections of Embassy Tel Aviv and Consulate
General Jerusalem (ISP-I-11-35).

To ensure unambiguous accountability, OIG has assigned lead action on joint
recommendations to one mission in coordination with the other. Successful resolu­
tion, however, will require action by both, and OIG regards both posts as equally
responsible.

Despite its name, Consulate General Jerusalem is not a constituent post of the
embassy in Tel Aviv, but a separate mission that has chief of mission authority of its
own and reports directly to Washington. Its primary mission is to carry out relations
with the Palestinian Authority, including quasi-diplomatic efforts to promote nego­
tiations toward an independent Palestinian state and programs aimed at helping build
the institutions necessary for such a state. At the same time, the consulate general is
accredited to the State of Israel and depends on Embassy Tel Aviv for critical support
on both practical and policy levels. The result is that neither mission can succeed
without close cooperation with the other.

EXECUTIVE DIRECTION
As noted in previous sections of this report, relations between the embassy and the
consulate general are better than they have been in many years. During the survey,
Washington officials warned the OIG team of past conflicts between the missions
over turf, authority, and perspective that undermined U.S. objectives. Despite some
lingering areas of confusion or inefficiency, the OIG team found an appropriate
structural relationship and a better picture of cooperation than expected. Current
embassy and consulate general leadership models good behavior, aware of the rule of
thumb that when commanders quarrel, they give permission to everyone below them
to echo or amplify their disputes.

Instead of waiting for such problems to resurface, the missions could move now to
institutionalize this atmosphere and create an ongoing culture of cooperation. Doing
so could help prevent backsliding in the future, when leaders’ personalities may not
be as collegial as they are now. Embassy Beijing and Consulate General Hong Kong,


                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   81


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     the latter of which, like Jerusalem, is a free-standing mission and not a constituent
     post, reached a written agreement on these issues in 2009.

     Joint Recommendation 1: Embassy Tel Aviv, in coordination with Consulate
     General Jerusalem, should draft and agree upon a document setting forth principles
     and procedures requiring joint action and affecting work in each other’s consular
     districts. (Action: Embassy Tel Aviv, in coordination with Consulate General
     Jerusalem)

     The Ambassador and consul general now attend public events together and encour­
     age collaboration among their staffs. They could further motivate their employees to
     work together by finding additional ways to demonstrate their own relations of trust.

     Joint Recommendation 2: Embassy Tel Aviv, in coordination with Consulate
     General Jerusalem, should develop and carry out a plan to attend each other’s coun­
     try team meetings at least quarterly, including at the chief of mission level, to share
     perspectives and improve coordination between the missions. (Action: Embassy Tel
     Aviv, in coordination with Consulate General Jerusalem)

     POLITICAL AND ECONOMIC AFFAIRS
     Some reporting on Israeli-Palestinian issues could be strengthened by closer coordi­
     nation between the consulate general and the embassy. The embassy bases its report­
     ing on Israeli sources, and the consulate on Palestinian sources. On occasion, this
     has led to “dueling cables” that reflect the contradictory perspectives of two foreign
     adversaries rather than an integrated view of both missions. The embassy and consul­
     ate have begun to hold joint meetings on some subjects, but their efforts to combine
     reporting have been hindered by too narrow a view of which post will receive the
     primary credit and which one will be listed as “contributing.” Joint reporting would
     not eliminate different views on policy or interpretation but combine information
     from both sources in a single message where appropriate. The British mission, facing
     similar dilemmas, makes extensive use of joint reporting by its embassy in Tel Aviv
     and its consulate general in Jerusalem.

     Joint Recommendation 3: Consulate General Jerusalem, in coordination with
     Embassy Tel Aviv, should develop and carry out a plan to increase their joint report­
     ing on Israeli-Palestinian issues. (Action: Consulate General Jerusalem, in coordina­
     tion with Embassy Tel Aviv)

     Both missions need to clarify the role of the Treasury representative in Jerusalem.
     Her work is focused on the West Bank but sometimes requires interaction with Israeli
     officials as well. Some Treasury Department visitors have been too impatient with
     this distinction and have pushed for her, instead of U.S. diplomats in Tel Aviv, to
     represent the U.S. Government in meetings with Israeli officials. The embassy has


82                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



also not been adequately sensitive to Treasury’s need to deal with both authorities in
order to carry out its responsibilities on complex issues such as Israeli Government
permission for cash transfers into Gaza. Both missions could improve effectiveness by
a limited cross-accreditation of the Treasury representative.

Joint Recommendation 4: Embassy Tel Aviv, in coordination with Consulate
General Jerusalem, the Bureau of Near Eastern Affairs, and the Bureau of Resource
Management, should approve any National Security Decision Directive 38 request
to accredit the Treasury representative in Jerusalem to work on Palestinian issues
with Israeli Government officials under the general supervision of Embassy Tel Aviv’s
minister-counselor for economic affairs. (Action: Embassy Tel Aviv, in coordination
with Consulate General Jerusalem, NEA, and RM)

PUBLIC DIPLOMACY
Cooperation between the two missions is closer in the area of public diplomacy (PD).
In addition to coordinating on visits, they collaborate on joint International Visitor
programs with Israelis and Palestinians and share speakers and cultural programs.
The American Center in Jerusalem (managed by Tel Aviv) helped the consulate
general set up a new America House in East Jerusalem. Some PD programs have been
affected by the lack of clarity over which post is responsible for certain administrative
support functions discussed in the management section of this report.

CONSULAR OPERATIONS
Both posts suffered from an anomaly in their visa referral practices. Because
Consulate General Jerusalem is not a constituent post, Department regulations did
not permit section chiefs in Embassy Tel Aviv to refer their contacts to the consulate
general for expedited consular appointments or Consulate General Jerusalem to refer
visa cases to Embassy Tel Aviv. Because Embassy Tel Aviv is the authorized liaison
with all Israeli Government ministries, most of which are located in Jerusalem, this
prohibition limited the embassy’s ability to facilitate visa services for contacts in
Jerusalem, even when the contact was working on issues that benefitted Consulate
General Jerusalem. During the inspection, the Bureau of Consular Affairs amended
the Foreign Affairs Manual (9 FAM Appendix K) to permit reciprocal referrals.

Both missions have been talking for some time about exchanges in their consular
sections. Although language limitations and efficiency considerations must be taken
into account, the OIG team supports efforts to establish officer exchanges. Because
the two posts are about an hour apart, these exchanges could be implemented with­
out housing swaps, making them available to a wider range of officers than would
otherwise be the case.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   83


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     RESOURCE MANAGEMENT
     Both missions could do more to get more out of their limited resources by
     de-conflicting remaining areas of uncertainty or dispute and supporting each other
     whenever possible. The OIG team found residual tensions stemming from the
     embassy’s keeping control of some functions that dated back to the period when
     it was much larger than the consulate general or the consulate general’s assuming
     that autonomy is automatically preferable. Both sometimes operate on assumptions
     about Israeli Government requirements that hamper efficiency and may be outdated.
     The guiding principle should be advancing overall U.S. objectives as cost effectively
     as possible, not debating the prerogatives of one post or the other. Sometimes this
     principle will lead to more joint actions, sometimes to fewer, and sometimes to
     maintenance of the status quo, depending on the activity.

     New technology tools would help the missions share financial services. The
     Integrated Logistics Management System, now being deployed worldwide and
     projected to interface in the future with the Bureau of Resource Management’s finan­
     cial management system, offers possibilities. Microsoft Office SharePoint Services,
     now used by Consulate General Jerusalem and soon by Embassy Tel Aviv, holds
     promise as a means to share information and provide common workflow.

     Resolution of several management issues depends on cooperation between the two
     missions. One issue is mutual International Cooperative Administrative Support
     Services (ICASS) service support, which is problematic as the Department currently
     has no financial mechanism that allows one post to bill another for services. The
     ICASS Service Center realizes that this is a systemic deficiency and is working to
     develop such a capability within its software. In the meantime, the two missions
     compensate for this shortfall in various ways. For example, the PD section in Tel
     Aviv concluded in 2003 a memorandum of understanding that calls for Jerusalem to
     provide 15 ICASS services to Tel Aviv’s American Center in Jerusalem. As there is no
     payment mechanism, however, the workload and capitation counts for the American
     Center are included in those of the PD section in Jerusalem. Embassy Tel Aviv
     also provides pouch, diplomatic post office, and BlackBerry® services to Consulate
     General Jerusalem at no charge, absorbing the associated costs in its own budget. In
     the case of automated equipment in the American Center and the Ambassador’s suite
     in the King David Hotel, the embassy makes weekly maintenance and service visits
     when it would be more efficient for the consulate general to do them. The missions
     will also face an increased need for an ICASS cost reimbursement capability as the
     U.S. Agency for International Development increases the number of personnel that
     straddle the two missions and if the two missions collaborate to share some adminis­
     trative support functions.




84                    OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Joint Recommendation 5: The Bureau of Resource Management’s International
Cooperative Administrative Support Services Center should implement a system that
allows post-to-post charging and payment for services. (Action: RM)

Redundant administrative functions exist at the two missions. In Embassy Tel Aviv,
the OIG team noted that the consolidation plan is more of a status report than an
actionable set of proposals with defined milestones and outcomes. In Consulate
General Jerusalem, the Bureau of International Narcotics and Law Enforcement
Affairs section is growing and includes a management officer and administrative
support staff that mirror some consulate management section functions. The planned
increase of U.S. Agency for International Development positions in Jerusalem could
create additional redundancies. Duplicative administrative functions are inefficient
and would make a bad space problem even worse. Moreover, they would create a
larger staff footprint in a 15 percent danger-pay post.

Joint Recommendation 6: Embassy Tel Aviv, in coordination with Consulate
General Jerusalem, should consolidate administrative support functions at both
missions where appropriate to reduce or eliminate areas of duplication. (Action:
Embassy Tel Aviv, in coordination with Consulate General Jerusalem)

VISITOR SUPPORT
More joint support of visitors could help both missions manage a heavy visitor
workload. Embassy Tel Aviv coordinates aspects of a visit that deal with the Israeli
Government, whereas Consulate General Jerusalem coordinates meetings with
Palestinians. This formula provides a clear line of responsibility for political purposes,
but using it to provide logistical support results in an inefficient use of people and
resources. Embassy Tel Aviv will send a number of people, including drivers, security
personnel, and expeditors, to stay with the visitors in Jerusalem, incurring a high
cost for hotel nights, per diem, and overtime pay. The embassy also coordinates
hotel reservations and other arrangements from Tel Aviv instead of using local
Jerusalem personnel. Embassy Tel Aviv believes Consulate General Jerusalem does
not have staff with the necessary credentials to provide this support in Jerusalem,
explaining, for example, that the Israeli Government will not allow drivers from the
consulate general to enter the Ministry of Foreign Affairs and other government
office compounds because they are not Israeli citizens. The OIG team found this to
be outdated information; in fact, all consulate general drivers are registered on an
approved access list at the Ministry of Foreign Affairs and other government agencies.
Another point of contention is access to the airport: Embassy Tel Aviv applies for
access badges for employees and has a total of 62 for both missions; however, it has
given only 5 badges to Jerusalem for use by its shipping expeditors. A more equitable
allocation of access badges will allow Consulate General Jerusalem to pick up visitors
at the airport who plan to go directly to Jerusalem.



                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   85


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     The OIG team concluded that Consulate General Jerusalem has, or could develop,
     the resources and contacts needed to provide more logistical support to visitors
     in Jerusalem without incurring the additional costs of moving a support platform
     between cities. In some cases, the consulate may not currently have the financial
     resources to increase its support of visitors, but developing a plan that includes
     increasing resources to the consulate would result in an overall cost savings to the
     Department in the long term.

     Joint Recommendation 7: Embassy Tel Aviv, in coordination with Consulate
     General Jerusalem, should develop a joint process to provide logistical support for
     visitors to Jerusalem from Consulate General Jerusalem where appropriate and
     cost effective. (Action: Embassy Tel Aviv, in coordination with Consulate General
     Jerusalem)

     HUMAN RESOURCES
     Consulate General Jerusalem employees from the West Bank face special difficul­
     ties in traveling to and from work past military checkpoints, as most do not have
     permits to remain in Israel proper outside working hours. Many feel isolated from
     their American and Israeli colleagues. The OIG team found that this problem had a
     significant impact on performance and morale.

     Joint Recommendation 8: Embassy Tel Aviv, in coordination with Consulate
     General Jerusalem, should improve the performance and morale of Consulate
     General Jerusalem employees who are residents of occupied West Bank territories
     by requesting the Israeli Government to ease restrictions on their ability to remain
     in Israel after working hours and to facilitate their passage through military check­
     points to and from work. (Action: Embassy Tel Aviv, in coordination with Consulate
     General Jerusalem)

     The two missions share a single, local compensation plan. Although the OIG team
     agrees that a single plan is appropriate, it found a number of deficiencies that will
     require joint action to correct. Responsibility for the plan passed in June 2009 from
     Embassy Tel Aviv to Consulate General Jerusalem. The transfer of responsibility
     was made on an informal basis and the duration is unclear. No joint committee or
     working group exists that would consult on compensation matters and resolve issues
     that may arise between the two posts, which must deal with different categories of
     employees and provide equitable treatment to all. Communication between the two
     posts on compensation matters is ad hoc. The end result is that some problems that
     now cause low morale among LE staff and unequal treatment of some employees
     have languished for months, if not years.




86                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Joint Recommendation 9: The Bureau of Near Eastern Affairs should require
Embassy Tel Aviv and Consulate General Jerusalem to document their agreement on
roles and responsibilities for administration of their shared local compensation plan.
(Action: NEA)

Joint Recommendation 10: The Bureau of Near Eastern Affairs should require
Embassy Tel Aviv and Consulate General Jerusalem to form a joint committee that
shall meet on a scheduled and regular basis to consult and resolve issues pertaining to
their shared local compensation plan. (Action: NEA)

Both missions participate in a supplemental retirement savings plan. The plan
augments social security benefits provided to Israeli citizens but is the only source of
retirement benefits for employees who hold West Bank identification. Employees and
the U.S. Government each contribute to the personal accounts, which are handled
through a broker with two insurance companies. In response to a 2008 change in
local law, Embassy Tel Aviv considered modernizing its retirement savings program.
Doing so required an audit, which had not been conducted since the program’s
inception. At the time of the inspection, the audit was in its 17th month and still
incomplete. LE staff members express little confidence in the savings program.
Despite management and employee agreement that a new retirement savings plan is
needed, the process is at a standstill.

Joint Recommendation 11: The Bureau of Near Eastern Affairs should require
Embassy Tel Aviv and Consulate General Jerusalem to complete the audit of
their common retirement savings program and establish a successor program that
conforms to prevailing local practice, good governance, and legal requirements, and
includes regularly scheduled audits. (Action: NEA)

Health and social security benefits differ for those employees who are covered by the
Israeli National Insurance Institute (NII) and those who are not. West Bank employ­
ees are ineligible for national insurance; their retirement benefits consist only of the
supplemental savings plan described earlier. Their health benefits consist of reim­
bursement of 50 percent of medical costs up to a limit of 5 percent of their salary.
Using data from comparators collected by the consulate general, the two missions
could develop a joint plan to provide more equitable coverage.

Joint Recommendation 12: The Bureau of Near Eastern Affairs should require
Embassy Tel Aviv and Consulate General Jerusalem to submit to the Bureau of
Human Resources for approval a plan to modify the missions’ local compensation
plan to provide equitable retirement and health benefits to employees who are not
eligible for National Insurance Institute of Israel coverage. (Action: NEA)




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   87


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     The 2005 OIG report recommended that Consulate General Jerusalem, in coordina­
     tion with Embassy Tel Aviv, resubmit a loan option request to the Bureau of Human
     Resources for approval. These loans against employee contributions to the supple­
     mental retirement savings accounts, which were allowed from 1999 to 2003, are
     especially important to non-Israeli citizen employees who do not have ready or easy
     access to bank loans. The two missions complied with the recommendation, gathered
     comparator data, and requested approval of the loan option. The Department denied
     the request. The OIG team examined the request documentation and consulted with
     the human resources sections of both missions, reaching agreement that the change
     in comparators from Watson Wyatt to Birches may make a difference. Moreover
     and in retrospect, the approach the missions took in interpreting and executing the
     Bureau of Human Resources guidance could have been flawed with regard to relat­
     ing it to local prevailing practice. The changed circumstances and importance of the
     loan option in achieving some equity among LE staff warrant yet another attempt to
     gain approval from the Bureau of Human Resources, which has offered to review the
     request again if post is able to collect additional comparator data.

     Joint Recommendation 13: The Bureau of Near Eastern Affairs should require
     Embassy Tel Aviv and Consulate General Jerusalem to develop a justification for
     reinstating the option of loans against retirement savings accounts and submit it to
     the Bureau of Human Resources for approval. (Action: NEA)

     The local compensation plan, dated September 12, 2010, and approved by the
     Bureau of Human Resources, includes an annual transportation allowance of 5,214
     New Israeli Shekels for every employee regardless of grade. Consulate General
     Jerusalem believes that the rate should be 5,641 New Israeli Shekels in order to
     comply with local law.

     Joint Recommendation 14: The Bureau of Near Eastern Affairs should require
     Embassy Tel Aviv and Consulate General Jerusalem to determine the level of trans­
     portation allowance required by local law and request Department of State approval
     for any necessary changes to their shared local compensation plan. (Action: NEA)

     FINANCIAL MANAGEMENT
     The OIG team found anomalies in the system by which the missions pay their
     portions of the premiums for health and social security benefits. Consulate General
     Jerusalem budgets for the entire amount due based on each employee’s salary and
     an assumption that each employee will pay his or her entire obligation. Embassy
     Tel Aviv budgets are based on the prior year’s actual expenses, a far smaller amount.
     Employees pay some or all of the required premium payments, present proof of
     payment to the financial management office, and are reimbursed.




88                     OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Some employees at both missions are not claiming premium reimbursements in a
timely manner, and some are not claiming an amount commensurate with their
salaries. As a result, the missions are carrying forward unliquidated obligations from
year to year. Consulate General Jerusalem’s 2007 program, ICASS, and PD accounts
contain $309,171 in unliquidated NII premium funds. The same accounts for 2008
contain $355,860 of unliquidated obligations. By comparison, Embassy Tel Aviv
retained approximately $73,000 in similar accounts for FY 2009.

This practice creates a significant and unnecessary workload for the financial
management unit, which processes payments by hundreds of LE staff each month.
Many of the payments are made by the Class B cashiers at both missions, which
increases cash risk. Paying the entire employer share of NII premiums in conjunction
with regular salary payments would dispose of this obligation in a more efficient
manner, eliminate the workload associated with the current method of payment,
and reduce the large number of unliquidated obligations that are carried forward for
many years.

Joint Recommendation 15: The Bureau of Near Eastern Affairs should require
Embassy Tel Aviv and Consulate General Jerusalem to pay their obligations for the
employer portion of National Insurance Institute of Israel social security and health
benefits plan in full, in a timely manner, and in accordance with local practice and
law. (Action: NEA)

INFORMATION MANAGEMENT AND INFORMATION
SECURITY
Combining classified information networks would reduce costs for both missions. A
consolidated network would create a suitable platform to support the joint reporting
recommended earlier.

Joint Recommendation 16: The Bureau of Near Eastern Affairs, in coordination
with the Bureau of Information Resource Management, should require Embassy Tel
Aviv and Consulate General Jerusalem to consolidate their classified information
networks. (Action: NEA, in coordination with IRM)

Embassy Tel Aviv and Consulate General Jerusalem are not performing informa­
tion systems security officer (ISSO) duties adequately due to insufficient staffing
and competing priorities. There is little likelihood that the Department will create
separate, full-time ISSO positions at both the consulate general and the embassy, so
a more prudent approach is to designate a dedicated regional ISSO to support both
missions.




                  OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   89


               SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED


Joint Recommendation 17: The Bureau of Near Eastern Affairs, in coordina­
tion with the Bureau of Human Resources, should establish a regional information
systems security officer position to support Embassy Tel Aviv and Consulate General
Jerusalem. (Action: NEA, in coordination with DGHR)




                 OIG Report No. ISP-I-11-31A - Inspection of Embassy Tel Aviv, Israel - March 2011   90


              SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE

OR MISMANAGEMENT

 of Federal programs hurts everyone.



           Contact the

   Office of Inspector General


         HOTLINE

to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General

       U.S. Department of State

            P. O. Box 9778

         Arlington, VA 22219



     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED

